<html>
<title> - DISASTER CASE MANAGEMENT: DEVELOPING A COMPREHENSIVE NATIONAL PROGRAM FOCUSED ON OUTCOMES</title>
<body><pre>[Senate Hearing 111-543]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-543
 
                  DISASTER CASE MANAGEMENT: DEVELOPING
                    A COMPREHENSIVE NATIONAL PROGRAM
                          FOCUSED ON OUTCOMES

=======================================================================



                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
56-147                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois           ROBERT F. BENNETT, Utah
                      Ben Billings, Staff Director
                  Andy Olson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Landrieu.............................................     1
Prepared statement:
    Senator Landrieu.............................................    37

                               WITNESSES
                      Wednesday, December 2, 2009

Elizabeth A. Zimmerman, Assistant Administrator, Disaster 
  Assistance, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     4
David Hansell, Principal Deputy Assistant Secretary, 
  Administration for Children and Families, U.S. Department of 
  Health and Human Services......................................     6
Frederick Tombar, Senior Advisor, Office of the Secretary, U.S. 
  Department of Housing and Urban Development....................     8
Kay E. Brown, Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office................    10
Amanda Guma, Human Services Policy Director, Louisiana Recovery 
  Authority......................................................    11
Rev. Larry Snyder, President and Chief Executive Officer, 
  Catholic Charities USA.........................................    21
Diana Rothe-Smith, Executive Director, National Voluntary 
  Organizations Active in Disaster...............................    22
Irwin Redlener, M.D., Professor, Clinical Population and Family 
  Health, Director, National Center for Disaster Preparedness, 
  Columbia University Mailman School of Public Health, and 
  President, Children's Health Fund..............................    24
Stephen P. Carr, Program Director, Mississippi Case Management 
  Consortium.....................................................    27
Monteic A. Sizer, Ph.D., President and Chief Executive Officer, 
  Louisiana Family Recovery Corps................................    29

                     Alphabetical List of Witnesses

Brown, Kay E.:
    Testimony....................................................    10
    Prepared statement...........................................    66
Carr, Stephen P.:
    Testimony....................................................    27
    Prepared statement with attachments..........................   103
Guma, Amanda:
    Testimony....................................................    11
    Prepared statement...........................................    82
Hansell, David:
    Testimony....................................................     6
    Prepared statement...........................................    53
Redlener, Irwin, M.D.:
    Testimony....................................................    24
    Prepared statement...........................................    99
Rothe-Smith, Diana:
    Testimony....................................................    22
    Prepared statement...........................................    95
Sizer, Monteic A., Ph.D.:
    Testimony....................................................    29
    Prepared statement...........................................   161
Snyder, Rev. Larry:
    Testimony....................................................    21
    Prepared statement...........................................    89
Tombar, Frederick:
    Testimony....................................................     8
    Prepared statement...........................................    63
Zimmerman, Elizabeth A.:
    Testimony....................................................     4
    Prepared statement...........................................    46

                                APPENDIX

Charts submitted for the Record by Senator Landrieu..............    39
Daniel Stoecker, Chief Operating Officer, BPSOS, prepared 
  statement......................................................   179
John R. Vaughn, Chairperson, National Council on Disability 
  (NCD), prepared statement......................................   183
Questions and responses submitted for the record from:
    Ms. Zimmerman................................................   193
    Mr. Hansell..................................................   195
    Mr. Tombar...................................................   198
    Ms. Brown....................................................   201
    Ms. Guma.....................................................   204
    Dr. Redlener.................................................   206
    Mr. Carr.....................................................   210
    Dr. Sizer with an attachment.................................   214


                  DISASTER CASE MANAGEMENT: DEVELOPING



                    A COMPREHENSIVE NATIONAL PROGRAM



                          FOCUSED ON OUTCOMES

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2009

                                   U.S. Senate,    
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good afternoon, and I thank everyone for 
your attention. Welcome to our meeting of the Subcommittee on 
Disaster Recovery. My Ranking Member was planning to join us 
and was called away to the White House for an unexpected 
meeting, so Senator Graham will not be with us today, but his 
staff is here and other Members may come in.
    We have called this meeting today to discuss the ongoing 
efforts of the Federal Government to better coordinate the case 
management work associated with disasters, particularly 
catastrophic disasters, as was the case in the 2005 season with 
Hurricanes Katrina and Rita, and then followed on by Hurricanes 
Gustav and Ike in 2008, which really devastated the Gulf Coast. 
It is not the first time we have had a catastrophic natural 
disaster in the country, but it was one of the most significant 
and, of course, most recent.
    So let me first begin by welcoming our panel. I am going to 
give very brief opening remarks and then introduce our first 
panel. Before I do, there are a few announcements.
    I am pleased to have three Louisiana legislators with us, 
if you all would stand and let me recognize you all. We are 
always pleased to have legislators from any State, but 
particularly my State, so welcome. [Laughter.]
    And I understand it is Beth Zimmerman's birthday today, so 
happy birthday, Beth. Working on her birthday. These FEMA 
people, they just keep working. So we appreciate you being here 
on your special day.
    Let me just begin by saying that in the aftermath of 
Hurricanes Katrina and Rita, 250,000 families lost their homes. 
So over a weekend, 240,000 people became unemployed. Schools, 
hospitals, and transportation systems ceased to operate. So did 
social support networks that we all count on when those things 
happen. Churches, community centers, and nonprofits were unable 
to reopen. All of this upheaval took a massive toll on the 
physical, mental, emotional, and financial well-being of people 
along the Gulf Coast.
    In response to these complex and overwhelming needs, 
disaster relief nonprofits and government agencies launched a 
series of ad hoc case management programs to help families get 
back on their feet, because, frankly, we didn't have anything 
very well organized before this. The overarching objective of 
case management, as we know, is to return households to a state 
of normalcy and self-sufficiency as soon as possible. Case 
managers are supposed to serve as a single point of contact to 
help survivors access resources and services. Resources include 
things, as we know, like furniture, cookware, clothing, or 
housing, and services might be jobs, job placement, job 
training, child care, mental health counseling, financial 
counseling, or transportation to school and work, anything that 
would help families who have been affected get back to normal.
    FEMA, HUD, HHS, and the States of Louisiana and Mississippi 
have all run case management programs since the 2005 
hurricanes. The existence of so many programs in the same 
region caused a great deal of confusion among service providers 
and clients, but it also provided a diverse set of examples to 
inform the development of better models for the future.
    That is what this hearing is about today. The title of the 
hearing refers to ``Developing a Comprehensive National Program 
Focused on Outcomes.'' We are hoping that the information that 
is given can provide a more comprehensive approach focused not 
on process, but on outcomes, positive outcomes for these 
families in the event that this happens again, and undoubtedly, 
it will, someplace, somewhere in the United States, something 
similar.
    So several startling statistics I just want to raise as we 
open this hearing. At one point, and I am not sure of the date 
of this, but at one point sometime probably within a few months 
of the storm, maybe within a year, a survey was taken and we 
found that only one-third of school-aged children at a group 
trailer site known as Renaissance Village in Baker, Louisiana, 
of which many of us are very familiar with, were attending 
school. That is not a good signal.
    The homeless population of New Orleans, based on our 
understanding, has doubled since these storms, although a 
Herculean effort has been made, not only by our local groups 
but also HUD, to try to find appropriate housing. There are 
still thousands of people that we believe to be homeless, many 
of whom are residing in abandoned or vacant buildings.
    Case managers and their clients use separate programs with 
different eligibility rules. We will learn more about that 
today. As a result, clients went through intake multiple times. 
Providers had to expend significant administrative resources. I 
could go on and on.
    Some of the previous pilot programs seemed to focus, as I 
said, more on process than on outcomes. When they passed a 
client on to someone else, the case was closed. That doesn't 
necessarily mean the family was ultimately helped. It just 
means the case was closed. We want to think about a system 
where when cases are closed, that means the family is back in a 
house, back in a job, the kids are back in school, and the 
family has regained their livelihood and self-sufficiency.Some 
of these families were on public assistance, but the majority 
never were, but most certainly needed some government aid to 
get back to normal after the hurricanes.
    So we must continue to look at ways to improve, and that is 
what this hearing is about. Case managers were required to meet 
quotas for closing cases, which may have led to premature 
closures, as I said, or just passing off families that were 
difficult to serve.
    Case management services are delivered under difficult 
conditions that make communication, recordkeeping, 
coordination, and efficiency tough. In areas like Southeast 
Louisiana, where housing and mental health professionals had 
all but disappeared, connecting people with the resources and 
services they needed was sometimes an impossible task. But we 
need to understand that this happens in a natural disaster. 
What can we do to improve it?
    There is always tension between consistency and 
flexibility. We must standardize things like paper forms, data 
entry, and funding. But we also need to give flexibility to 
those trying to deliver these services in a difficult 
situation.
    Privacy Act regulations prohibit FEMA from sharing 
registrants' information without written consent, so case 
managers knock on trailer doors and relyed on word of mouth to 
offer their services instead of having access to reliable data. 
Maybe that is appropriate. Maybe it is not. We should review 
that.
    That is what I am hoping that we can get from some of our 
panelists today, suggestions as to how we can improve the 
situation.
    Let me suggest, though, in closing, that we may not have to 
look that far, and perhaps some of you have already looked at 
the models that exist, that have existed for over 30 or 40 
years, that serve to help foreign refugees resettle here in the 
United States. In international circles, they are called 
refugees. But in the context of our speaking, they share a lot 
of similarities with people who are displaced inside of 
America. American citizens are displaced temporarily from their 
homes, and perhaps we can look at international models that are 
successful and shape them and modify them so we can be more 
helpful when thousands and thousands--tens of thousands--
hundreds of thousands of families are displaced, not for a day, 
not for a weekend, not for a week, but for months, and some 
displaced for years from their homes while the community is 
trying to reestablish itself.
    So we are hoping to get some information at this hearing 
about how to do that, and, of course, for the taxpayer picking 
up the tab for all of this, it is important that we do it 
efficiently and effectively so we are not wasting resources and 
wasting funding, and that we do it, of course, with the 
appropriate respect and deference to the families that we are 
trying to serve and the communities that we are working within.
    So with that, let me submit the rest of my statement for 
the record and briefly introduce the first panel.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Landrieu appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    We are very pleased that we had such a good response. Our 
first witness today--I am going to introduce you all and then 
we'll hear your testimony--again, Beth Zimmerman, our birthday 
person, serves as Assistant Administrator for Disaster 
Assistance at FEMA. She has had extensive State experience, has 
acted as State Coordinating Officer for numerous federally-
declared disasters as well as scores of State-level disasters. 
We are looking forward to your testimony on this issue of case 
management.
    David Hansell is the Principal Deputy Secretary for the 
Administration for Children and Families with the Department of 
Health and Human Services. Thank you for being here. We are 
looking forward to hearing your views.
    Fred Tombar is a Senior Advisor to Secretary Donovan. He 
has probably been in New Orleans and other parts of Louisiana 
as many times as I have in the last few months, and we 
appreciate it. Being from the State of Louisiana, he is very 
special to us, and we are looking forward to his testimony 
today.
    Kay Brown, our fourth witness, is Director of Education, 
Workforce, and Income Security at the Government Accountability 
Office (GAO). She will be here to discuss a report that GAO 
released on disaster case management, which I co-requested with 
Chairman Lieberman, and will shed some light on this challenge 
before us.
    And finally, Amanda Guma is Health and Human Services 
Policy Director for our own Louisiana Recovery Authority, where 
she is overseeing our case management programs in Louisiana, 
and so she will be giving somewhat of the State perspective.
    We have also invited our Mississippi folks to participate, 
as well, and some of our international NGOs are here, which 
won't be testifying, but that will provide input going forward.
    So, Ms. Zimmerman, why don't we begin with you, and if you 
could each limit your testimony to 5 minutes, we will then 
begin the first round of questioning. Thank you.

       TESTIMONY OF ELIZABETH A. ZIMMERMAN,\1\ ASSISTANT 
     ADMINISTRATOR, DISASTER ASSISTANCE, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Zimmerman. Good afternoon, Chairman Landrieu. My name 
is Beth Zimmerman and I am FEMA's Disaster Assistance Assistant 
Administrator. It is a privilege to be here today on behalf of 
the Department of Homeland Security and the Federal Emergency 
Management Agency. As always, we appreciate your interest and 
your continued support in emergency management and especially 
in implementing the Disaster Case Management Program and 
authorities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Zimmerman appears in the Appendix 
on page 46.
---------------------------------------------------------------------------
    FEMA's goal has always been to work with the communities 
and assist them with their unmet disaster-related needs 
following a disaster so they can move forward quickly on the 
road to recovery, as one of these ways of achieving this goal 
is to help survivors to understand and to navigate through the 
wide array of services and programs that may be available to 
them to return to self-sufficiency and sustainability. As the 
coordinator of Federal disaster assistance, FEMA was charged 
with securing the delivery of disaster case management 
services. FEMA has been delivering disaster case management 
services on a very limited basis since the beginning of the 
Individual Assistance Recovery Programs in 1988.
    Historically, these services have been very limited. They 
provide referrals to Federal, State, and local assistance 
programs, connecting the survivors to volunteer organizations 
through long-term recovery committees. However, the widespread 
devastation, as was noted, caused by Hurricanes Katrina and 
Rita created new challenges for the delivery and coordination 
of disaster recovery assistance at all levels of government.
    In recognition of these challenges and the desire to 
expedite the comprehensive disaster recovery, Congress provided 
FEMA with the legal authority to implement a Disaster Case 
Management Services Program under the Post-Katrina Emergency 
Management Reform Act of 2006. Since that time, FEMA has been 
working very closely with our Federal, State, and local 
partners to pilot the delivery of several disaster case 
management models.
    Currently, FEMA is implementing a two-phase Disaster Case 
Management Program model, and I am very pleased, in fact, today 
to announce that just this morning, we signed an interagency 
agreement between FEMA and the Administration for Children and 
Families (ACF) so that we could finalize both agencies' role in 
disaster case management. The agreement outlines the first 
phase of disaster case management, where once a State requests 
to have disaster case management, FEMA will notify ACF to 
initiate their rapid deployment of disaster case management 
assistance to the individuals and families in the affected 
disaster area.
    Phase two of the program consists of a transition to the 
State-managed Disaster Case Management Program funded through a 
direct grant from FEMA to the State, and this will ensure that 
the State is an essential partner in the delivery of ongoing 
disaster case management services and the use of local service 
providers in the recovery of disaster survivors and the 
surrounding communities will be maximized. It also allows for 
States to build their capability and to care for their own 
citizens.
    The delivery of timely, appropriate disaster case 
management services cannot be managed, as we know, at the 
Federal level alone. In fact, the coordination is most 
effective when it is on the ground, local, and close to the 
people affected. Many communities have such systems for 
coordination already in place through their established 
relationships among Federal, State, and local partners, the 
faith-based and the nonprofit organizations, the private 
sector, and most importantly, the disaster survivors 
themselves. Our goal is to build on the relationships to ensure 
the survivors have a holistic approach to rebuilding their 
lives in the wake of a disaster.
    Because many of the disaster case management pilot programs 
are still ongoing, FEMA will be incorporating the successes and 
the challenges of the various models as well as the 
recommendations from the July 2009 Government Accountability 
Office report to develop the program guidance and regulations 
for the future to be a permanent Disaster Case Management 
Program.
    FEMA is also committed to ensuring disaster survivors have 
access to the resources and services they need to help them 
rebuild and recover following a disaster.
    But we can't do it alone. To be effective, our case 
management efforts have to be coordinated with experts at the 
Federal, State, and local levels of government and with faith-
based and nonprofit organizations. FEMA will continue to 
fortify existing disaster case management partnerships and 
encourage new collaboration to ensure the implementation of a 
successful case management program, and I look forward to 
answering any questions you may have.
    Senator Landrieu. Thank you, and congratulations on coming 
to that agreement. It has been something that I have asked for 
for a long time now, and I am very pleased that you all have 
taken this opportunity to make that announcement.
    Mr. Hansell.

   TESTIMONY OF DAVID HANSELL,\1\ PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Hansell. Thank you very much. Senator Landrieu, thank 
you for the opportunity to testify on ACF's disaster case 
management efforts. We share your commitment to improving the 
well-being of disaster survivors and appreciate your support 
for a well-coordinated, comprehensive disaster case management 
strategy. My testimony today will focus on ACF's current 
disaster case management efforts, the lessons we have learned, 
and our plans to continue and strengthen this vital work.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hansell appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    After the Stafford Act was amended in 2006 to authorize the 
President to provide funding for case management services to 
survivors of major disasters, ACF worked closely with FEMA, 
with Voluntary Organizations Active in Disaster, and States to 
develop a holistic disaster case management model. Our approach 
to disaster case management seeks to assist States in rapidly 
connecting children, families, the elderly, and persons with 
disabilities with critical services that can restore them, as 
you indicated, to a pre-disaster level of self-sufficiency that 
maintains their human dignity.
    Our model is based on five principles: Self-determination, 
self-sufficiency, federalism, flexibility and speed, and 
support to States. Based on these principles, the pilot project 
was designed to augment existing State and local capability to 
provide disaster case management.
    We first implemented a 2-week pilot project in September 
2008 following Hurricane Gustav in Louisiana. FEMA then 
requested that we continue our pilot throughout the recovery 
process, which we have done with the support of the U.S. Public 
Health Service and Catholic Charities USA. In addition, we 
expanded the pilot to include survivors of Hurricane Ike to 
allow enrollment of new clients for up to 6 months post-
disaster and to provide case management services for up to 12 
months following enrollment. This expansion from Hurricane 
Gustav to Hurricane Ike was seamless and resulted in no break 
in services to disaster survivors.
    The total program across all sites is designed to run for 
18 months from implementation, and to date, we have provided 
case management services to approximately 21,000 individuals, 
far greater than the 12,000 that we expected to serve. The 
majority of these clients had incomes below $15,000 a year, and 
35 percent of the individuals that we served were children.
    To improve the program, we have evaluated our disaster case 
management efforts at multiple stages. We first conducted an 
after-action report on the initial 2-week pilot following 
Hurricane Gustav. This report identified strengths of the 
program, including the ability to initiate services within 72 
hours of activation; the use of volunteers as program support 
and subject matter experts; the creation of effective links to 
health care, human services, mental health, and disaster-
related resources; and the successful establishment of an 
intake call center for clients seeking services.
    The report also identified areas requiring improvement, 
including the need to pre-identify case managers for 
deployment; to determine the availability of full-time case 
managers from voluntary organizations; and to establish clear 
team member roles and responsibilities on initial deployment.
    We subsequently awarded a contract to evaluate the 
organizational structure and processes used for the pilot and 
to identify any significant implementation barriers that 
impacted clients' return to self-sufficiency or to access 
needed services. After the pilot ends, we plan to conduct an 
assessment of the impact and outcomes of case management 
services on clients' abilities to return to self-sufficiency 
and get back on their feet. Our focus on participant outcomes 
responds to the concerns cited in the GAO report and, concerns 
you expressed on the fact that Federal disaster case management 
evaluations to date have addressed process and implementation 
issues, but not outcome and impact issues, and we intend to do 
that.
    I am delighted to report, as Ms. Zimmerman already 
indicated, that we have executed an interagency agreement with 
FEMA to allow for implementation of our Disaster Case 
Management Program after a future major disaster has been 
declared by the President. The agreement states that in 
coordination with FEMA and the States, ACF will initiate 
disaster case management within 72 hours of notification and 
for a duration of 30 to 180 days, depending on need.
    At the end of the deployment period, we will transition 
disaster case management to either existing State resources or 
FEMA-funded State disaster case management programs. In 
exceptional situations, FEMA may authorize ACF to continue 
services until the State is able to assume disaster case 
management, while meanwhile providing States technical 
assistance, as needed.
    Drawing on lessons learned from the pilot project and 
existing human services and disaster management expertise, the 
President's fiscal year 2010 budget request for ACF would fund 
the contract with Catholic Charities USA to provide a Federal 
disaster case management system. This contract will ensure that 
trained personnel are credentialed and available when a serious 
disaster strikes.
    Before I conclude, I would like to share just two brief 
stories that illustrate the significance of these efforts on 
the lives of individuals. One case manager helped a 49-year-old 
disabled man in Terrebonne Parish after his roof was damaged by 
Hurricane Gustav. The case manager helped him apply for Food 
Stamps, delivered the Food Stamp card to his home, and located 
AmeriCorps volunteers to assist with roof repairs.
    Our case management program also assisted a single mom with 
five children in Saint Tammany Parish who could not evacuate 
their mobile home prior to Hurricane Gustav. After meeting with 
the case manager, this woman received immediate help with 
housing services, Food Stamps, clothing, crisis counseling, and 
disaster unemployment assistance.
    These two are exemplary of thousands of other instances 
where disaster case management has made a significant 
difference in survivors' lives.
    I truly appreciate the opportunity to appear before the 
Subcommittee and look forward to working with you on this vital 
effort. Thank you very much.
    Senator Landrieu. Thank you, Mr. Hansell. Mr. Tombar.

TESTIMONY OF FREDERICK TOMBAR,\1\ SENIOR ADVISOR, OFFICE OF THE 
  SECRETARY, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Tombar. Good afternoon, Chairman Landrieu, and thank 
you for inviting me to testify here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tombar appears in the Appendix on 
page 63.
---------------------------------------------------------------------------
    As you noted, Madam Chairman, HUD has administered case 
management services in the Gulf Coast for thousands of families 
impacted by Hurricanes Katrina, Rita, Gustav, and Ike. Under 
the largest of these programs, the Disaster Housing Assistance 
Program (DHAP)-Katrina, HUD disbursed $63 million to public 
housing agencies (PHAs), to provide case management services to 
more than 36,000 families at a cost of $92 per month per 
family. The purpose of the DHAP-Katrina case management was to 
help families transition to permanent housing.
    Using models like HUD's HOPE VI Program and FEMA's Katrina 
Aid Today, a robust case management system was developed that 
emphasized the case manager's service connector role. 
Specifically, case managers completed needs assessments, 
establishing Individual Development Plans (IDPs) that 
identified the goals of each participant, primary of which was 
finding permanent housing. To reach these goals, case managers 
referred families to services that would assist in their 
progress.
    DHAP-Katrina case management was implemented for all active 
DHAP-Katrina participants until February 28, 2009, the original 
end date for DHAP-Katrina. Between September 2007 and February 
2009, case managers completed over 37,000 risk assessments and 
established over 34,000 IDPs. Nearly 97,000 referrals for 
services were made. The average case manager-to-client ratio 
was 1-to-28, and over 1,000 case managers were engaged in 
service provision.
    During the transitional close-out program for DHAP-Katrina, 
from March 2009 to October, case management was provided in the 
States of Tennessee and Louisiana, with 200 case managers 
providing services to over 5,000 families.
    While case management was being provided for DHAP-Katrina, 
Hurricanes Gustav and Ike struck the Gulf Coast in September 
2008. HUD again worked closely with FEMA to establish DHAP-Ike. 
Case management services for DHAP-Ike participants began in 
November 2008, and PHAs received a fee of $100 per month per 
family to provide case management. DHAP-Ike is scheduled to end 
in March 2010, and to date, $20 million has been disbursed to 
PHAs to fund work of 400 case managers in providing services to 
over 17,000 families.
    Within HUD's Office of Community Planning and Development, 
multiple programs provide case management and essential support 
services. Both traditional and disaster-related Community 
Development Block Grant (CDBG) program funds may be used for 
public services in the areas of employment, job training, child 
care, and other public services.
    The State of Louisiana has obligated--the State of 
Mississippi, I am sorry, has obligated more than $24.7 million 
of its disaster CDBG funding toward case management for people 
in its homeowners and small rental program. The State of 
Louisiana has similarly embedded applicant-based case 
management into its Housing Resource Assistance into its 
homeowner and small rental programs. Neither the State of 
Mississippi nor Louisiana has used disaster recovery CDBG money 
to directly provide case management services outside of those 
two programs.
    Through the provision of DHAP case management, HUD has 
learned several key lessons that would assist Federal policy 
changes in the development of Disaster Case Management 
Programs. Under DHAP, high-quality case management is often 
provided when PHAs contract with local service providers rather 
than providing the services in-house. As Ms. Zimmerman 
testified to, local case management providers are already 
positioned to provide assistance and have the expertise in case 
management. Therefore, HUD recommends drawing on organizations 
that have a history of providing case management to disaster-
impacted populations.
    A second lesson learned is that even when utilizing local 
case management organizations, they may be insufficient direct 
post-disaster to fully serve these families. So beyond case 
management provisions, disaster-impacted regions are in need of 
increased resources for service providers.
    A third lesson learned is the need to work more extensively 
with other Federal or nonprofit partners to link vulnerable 
populations to resources. For example, as DHAP-Katrina was 
ending, concerns arose over whether the most vulnerable clients 
had access to necessary resources. As a result, Housing Choice 
Vouchers were prioritized for elderly and disabled 
participants.
    My final recommendation is that post-disaster case 
management should formally include a housing self-sufficiency 
function and that these services should be coordinated with HUD 
and the PHAs for DHAP families. This will help clients to 
navigate PHAs' policies, identify families eligible for HUD's 
core programs, and focus clients on achieving housing self-
sufficiency.
    Chairman Landrieu, thank you for having me here and I look 
forward to your questions.
    Senator Landrieu. Thank you very much.
    Now that we have heard the agencies, FEMA, HHS, and HUD, we 
will now hear from our Government Accountability Office for its 
report on what they have done and how we can improve.

 TESTIMONY OF KAY E. BROWN,\1\ DIRECTOR, EDUCATION, WORKFORCE, 
   AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Brown. Madam Chairman, thank you for inviting me here 
today to discuss our work on disaster case management following 
Hurricanes Katrina and Rita. My remarks are based on the report 
you referenced, which we issued in July of this year, along 
with some updated information.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Brown appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    This afternoon, I would like to focus on three issues. 
First, the support Federal agencies provided for Disaster Case 
Management Programs. Second, the challenges faced by the 
agencies delivering the services. And third, the importance of 
learning from these experiences to improve client outcomes 
under the new program being developed.
    First, regarding Federal agency support, as you have heard, 
FEMA, HUD, and HHS provided more than $231 million to support 
multiple Disaster Case Management Programs. These programs 
provided services for as many as 116,000 families through 
numerous social service and voluntary organizations. However, 
as you can see in the graphic on my left, these programs 
started and stopped at different times. Sometimes they 
overlapped and sometimes there were breaks in funding and gaps 
between the programs. These gaps led some service providers to 
lay off workers or shut down services and may have allowed an 
unknown number of people in need to simply fall through the 
cracks.
    Also, Federal agencies and case management providers had 
difficulties sharing timely and accurate information on who was 
getting or who needed services. In some cases, due to privacy 
policies, FEMA was unable to provide needed client-level 
information to service providers to help them assist those in 
need.
    Moreover, the service providers themselves use several 
different and incompatible databases, making it difficult to 
track clients across agencies. Again, this may have resulted in 
some people not receiving needed services. It may also have 
allowed others to receive services from multiple providers.
    Second, turning to the challenges faced by the agencies 
delivering disaster case management services, many agencies 
faced high staff turnover and large caseloads. Some agencies' 
caseloads ranged from 40 to as high as 300 cases per worker. 
Also, clients frequently needed help finding housing, 
employment, training, and other basic necessities, as you can 
see from our graphic on the right. But these were in short 
supply, and FEMA-funded service providers were not permitted to 
provide direct financial assistance to their clients.
    Unfortunately, many case management agencies conducted 
little, if any, coordinated outreach. As a result, those most 
in need may not have been offered or received services, such as 
those in the group trailer sites. Further, Long-Term Recovery 
Committees, which were intended to help marshal and direct 
limited resources, did not always live up to their potential. 
In some cases, they, too, were depleted of resources, and in 
others, case managers viewed the process for obtaining 
assistance as time consuming or confusing.
    Third, regarding the importance of lessons learned to help 
improve client outcomes under the new program. After 4 years 
and more than $231 million, we still do not know enough about 
whether these services actually helped storm victims. We need 
to better understand how well the programs met their clients' 
needs, and when they did, what specific factors contributed to 
meeting those needs.
    In our July report, we recommended that FEMA conduct an 
outcome evaluation of the pilot programs. We understand that 
FEMA currently plans to glean outcome information from 
evaluations and use this information as it develops the model 
for its new Federal Disaster Case Management Program. Learning 
from these pilot programs is particularly important in light of 
the coordination and other challenges service providers faced, 
all of which could adversely affect client outcomes.
    Given the uncertainty of when and how large the next 
disaster will be, we also recommended that FEMA establish a 
time line to hold itself accountable for progress in finalizing 
its new program.
    In conclusion, it will be crucial to incorporate lessons 
learned over the past 5 years so that future disaster victims 
have the best chance to get their lives back on track and so 
government resources are put to the best use.
    Madam Chairman, this concludes my prepared statement.
    Senator Landrieu. Thank you, Ms. Brown. We really 
appreciate the report that you all have done. It will be very 
informative and already has been for us as we move forward to 
try to improve.
    Ms. Guma.

 TESTIMONY OF AMANDA GUMA,\1\ HUMAN SERVICES POLICY DIRECTOR, 
                  LOUISIANA RECOVERY AUTHORITY

    Ms. Guma. Thank you, Senator Landrieu, for the invitation 
to testify today, and thank you for your leadership in helping 
to secure resources for disaster case management for the State 
of Louisiana. We are also grateful to our Federal partners for 
making such an important investment in this critical activity. 
We appreciate the opportunity to reflect on our experiences and 
to talk about the challenges and make recommendations for 
future Disaster Case Management Programs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Guma appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    Since Hurricane Katrina, funding for Disaster Case 
Management Pilot Programs has come down to Louisiana through 
various channels, to nonprofit organizations, to local 
entities, and to the State itself. Because most of those 
programs have required reimbursement, local providers have 
assumed significant financial burdens in launching them.
    One of the primary reasons why our original partners in our 
application for FEMA's Disaster Case Management Pilot Program 
withdrew was because of the lack of up-front or advance costs 
for the program. Having already experienced funding delays with 
the reimbursement under Katrina Aid Today, those partners were 
unwilling to take a similar risk again.
    Another aspect of the Disaster Case Management Programs to 
date that has presented a challenge for us in Louisiana is the 
time lines. We remind the Subcommittee that virtually every 
program created for human recovery has been extended beyond its 
original time period. While we are grateful for the flexibility 
that our Federal partners have shown in extending those 
programs, we regret the negative impact of the changing time 
lines on our residents.
    Last-minute decisions from Washington have made it very 
difficult for the State to protect its clients. We have seen 
thousands of families leave trailers and rental units in 
anticipation of upcoming deadlines, many of them turning to 
unsafe alternatives. We know that some have returned to damaged 
homes that are dangerously uninhabitable, while others are 
renting apartments that do not meet quality standards.
    Program periods are often determined at the beginning of 
the recovery process and often in the absence of input from 
local stakeholders. In every case to date, local leaders have 
known that these program periods were too aggressive and not 
reflective of the actual pace of recovery. The ultimate impact 
of this has been felt most by the very people these programs 
have been designed to serve.
    The overarching challenge, however, that the State has 
faced with Federal Disaster Case Management Programs is around 
the need for greater coordination. Federal Disaster Case 
Management Pilot Programs provide a critical tool to identify 
needs and track recovery outcomes. As these programs move 
forward, and certainly as they come to an end, the information 
gathered must be made available to those State and local 
government agencies that will be assuming responsibility for 
the long-term recovery.
    The case management process creates an invaluable 
opportunity to translate the needs of residents into new or 
expanded local assistance programs, but this can only be 
achieved with proper coordination and information sharing.
    The Louisiana Recovery authority (LRA) has spent countless 
hours seeking information from Federal partners on program and 
client status. Requests by the State for information should not 
get stuck in agency headquarters where legal teams debate 
privacy issues and the State's right to the data. Local 
governments need access to this information to ensure their 
ability to meet ongoing needs when Federal Disaster Assistance 
Programs end.
    We thank both HUD and FEMA for working with us towards 
resolution on these issues, and we know that our progress has 
already had a positive impact. We regret, however, that greater 
change has not been made to date. In addition to data sharing, 
the coordination that we are recommending is also in terms of 
truly working together and collaborating on a local level. We 
have made tremendous success locally, but we believe that 
collaboration must be institutionalized within agencies and 
within the program design to ensure process and success. There 
are and there must be more effective ways for government 
partners at all levels to share information and client data.
    That said, we would make a few recommendations moving 
forward for Disaster Case Management Programs. We ask our 
Federal partners to explore creative ways to release funding 
more quickly for disaster case management, including up-front 
advances and preapproved grant applications. We ask our Federal 
partners to consult with local stakeholders when designing 
programs and to establish a process for reviewing progress 
halfway through the program period so that any extensions 
required can be determined well in advance of the deadline.
    We recommend that at the time of a disaster declaration, 
the State or impacted locality be included as a partner in any 
interagency agreement. And finally, we ask our Federal partners 
to formalize a structure and process for working together with 
local partners as part of all future program guidelines.
    Thank you.
    Senator Landrieu. Thank you very much, particularly for 
those succinct and, I think, very excellent recommendations for 
improvement.
    Before I get into questions, you all have the charts, I 
believe, on the table, and I would just like to refer you to 
the time line first.\1\ Just to put this hearing in 
perspective, while we are very encouraged by the agreement, Ms. 
Zimmerman, between FEMA and the Department of Health and Human 
Services, we want to recognize by this time line the fact that 
actually before Hurricanes Katrina and Rita, there was 
virtually no case management provision in the Federal law for 
dealing with a disaster, as if it was not an essential 
component of recovery, which it is.
---------------------------------------------------------------------------
    \1\ The charts referred to by Senator Landrieu appear in the 
Appendix on page 39.
---------------------------------------------------------------------------
    When you see this time line on this chart, which is 
represented up here, what strikes me as the hurricane hit in 
2005 and the levees broke in August 2005, Mississippi didn't 
have its own case management pilot program started until August 
2008. You think about that. Three years later before the 
program was even started? Well, it was phase two, I am sorry, 
phase two in Mississippi.
    Now, Louisiana Family Recovery Corps started in January 
2006, which is much sooner, but still, think about families in 
September and October and November and December, at some of the 
most critical times in these families' lives and there wasn't 
much to reach to. What was there was little, if anything, and 
very fragmented. We don't want to see this happen again.
    Another very interesting graph from this report which 
struck me is not up on our chart, but you all at the table can 
see it. It is a graph of how people found out about Katrina Aid 
Today (KAT), which was the Federal program put together in, it 
looks like here, sometime late in 2005. Eighty-five percent of 
the clients, according to the GAO report, heard about it from 
word of mouth. I mean, you would think in the midst of a major 
disaster, people would be, of course, listening to the radio or 
listening to public spots on the television. To think that 
families had to hear about it from each other as sort of a 
circle of survivors, like, what is working for you? Well, this 
case manager helped me. Maybe she can help you. It threw me a 
little bit. I don't know why we can't get free radio 
advertisement for these services to all these families.
    The other interesting chart, which is going to be part of 
my questions, because I am going to ask you how we are going to 
set up a system that actually can surge when necessary, is 
demonstrated by this chart, which shows the number of clients 
that were served. There were more clients served in Louisiana--
thank you for putting that up--30,000, than all the other 
States combined. So Texas had 13,000 people, Mississippi had 
9,000, Alabama, 2,500--I am just roughing these--Georgia, 
2,500. So Louisiana had 30,000 clients that were served.
    You could argue that three times as many people needed the 
help as ever got it and just abandoned the effort altogether. I 
don't know if we will ever know what those numbers were. But 
even assuming that these were all the families that needed help 
and we reached everyone, which is very wishful thinking, part 
of what my questions are going to focus on today, is whether 
the model that we are setting up can work well when only 2,000 
families are looking for help? And what happens to the model 
when 50,000 families need help? Is the model that we are 
building going to be able to surge to the levels necessary to 
do the job that is required?
    Another thing that struck me came from the GAO report. It 
said that the five most reported needs among the clients were 
housing, furniture, health and well-being, utilities, and food. 
I am very interested to see that jobs was not on here. I would 
have thought, with 240,000 people out of work, that one of the 
things that people might be scrambling the most for would be 
employment. So I am interested to know from GAO why that didn't 
come up more. Maybe it did in a different way. I mean, 
obviously, housing should be first because that is what people 
were scrambling the most for is shelter.
    And so those are just some of the observations I wanted to 
point out, and let me get to my questions and I will start with 
those. Let us talk about, with the panelists, about the model 
that you are developing. First of all, Ms. Zimmerman, do you 
have any intention of asking HUD to be a party to this 
agreement, or is this something that you all are doing just 
with Health and Human Services? And if so, why, and if not, why 
not?
    Ms. Zimmerman. The current agreement is between us and 
Health and Human Services. We recognize our partners with HUD 
through the programs that we have used to date. One of the 
initiatives that is going on right now is the Long-Term 
Disaster Recovery Working Group that has been established 
through the White House, which is in conjunction with the 
Secretaries for HUD and the Secretary for Homeland Security. So 
as we are moving forward with that, it is looking at disaster 
recovery on the broader scale and the abilities that we have 
today versus where we want to take disaster recovery in the 
future.
    So I believe one of the outcomes from that working group 
and our recommendations and our reports will be to incorporate 
all of the partners who have a piece of the case management and 
what that program should look like going forward.
    Senator Landrieu. And what is your view on that, Mr. 
Tombar?
    Mr. Tombar. I, too, reference the work that the two 
agencies are heading in concert with, actually, all the 
agencies across the Federal Government with the Long-Term 
Disaster Recovery Working Group. I believe that out of that, we 
will certainly see a recommendation to the President that, in 
fact, there needs to be better coordination across the Federal 
Government in a way that we provide services for recovery and 
relief to families that are impacted by disasters.
    Senator Landrieu. Right. And I think that all you really 
need to make that point is this particular chart, if I can find 
it, the one that says the thing that people needed most was 
housing. When you are managing cases for families--I don't know 
what I did with mine, but it is around here--they needed 
housing, I think it was the number one on the chart, and then 
furniture, health and well-being, utilities, and food. So we 
should keep that in mind.
    The other question that came to mind, just thinking about 
regular work in regular times, how communities and how families 
navigate among agencies to try to help them--without disasters 
in mind, just normal days--they call a service 211, it is like 
911, but there is a 211 service that we are trying to develop. 
I have been helpful in trying to start that up and fund it in 
many places around the country.
    In addition, Public Health units sometimes do outreach in 
urban areas. There would be Rural Extension Services in rural 
areas. A lot of families will call up Rural Extension and say, 
I need this help or I need that. They might call Public Health 
offices. And they most certainly, at a volunteer level, non-
government, 211 is something that I think communities are 
getting used to. How are we incorporating the bone structure 
that is already there before we build? And are we building on 
that? Are we paralleling some of their work? Are we using them 
in some case management? Or is that just a reference? Is 211 
just a referral service. It is not really case management, it 
is referral. But could that be used in any way as we build this 
system? Does anybody want to comment? Mr. Hansell.
    Mr. Hansell. Yes, absolutely. One of the things that we 
learned from the early part of our post-Gustav pilot was that 
having a single toll-free call-in line for access to services 
responded to the concern, Chairman Landrieu, that you mentioned 
earlier of people not having a direct place to go to get access 
to the services.
    What we would intend to do in the future is, where 
resources like 211 or other phone lines that exist, to build on 
and collaborate with those rather than to create something new. 
They don't exist in every State. They don't exist in every part 
of the State. But we certainly would agree that where they do 
exist, we would want to partner with them in building on an 
existing capability.
    Senator Landrieu. And I just think that would be a smart 
approach, to survey what exists in the 50 States now and in the 
counties, measuring that against the counties, or parishes in 
our case, most at risk. You can just overlay that risk map 
pretty easily over the assets, and when you are building a 
national model, build it at least on some of the things that 
are already there.
    And let me correct myself, because I want to give credit 
where credit is due. The bar graphs I mentioned earlier are 
from the report on Katrina Aid Today by the national service 
provider, which in this case was the United Methodist Committee 
on Relief. So we thank them for this information. And then the 
time line, of course, was presented by GAO.
    Let me ask a couple of other questions of the panel. This 
would be both for ACF and FEMA. Catholic Charities was awarded 
a 5-year nationwide case management contract as part of the 
task order which has not yet been funded. Catholic Charities is 
required to pre-identify local regional volunteers and 
subcontractors to be ready to deploy within 72 hours. Can you 
elaborate on the Department's plan for funding this contract 
and near-term tasks to develop a national team, and have you 
all identified funds to implement this contract?
    Mr. Hansell. Yes. That is our contract, so I will respond. 
We are awaiting the approval of our fiscal year 2010 budget to 
fund that contract. We are, like much of the government, 
operating under a Continuing Resolution right now.
    Senator Landrieu. And what is in the budget? I mean, what 
is in the appropriations bill?
    Mr. Hansell. The President requested $2 million, the bulk 
of which would be used to fund the contract. We designed the 
contract to respond to a number of the things that we learned 
from our initial evaluation, as I mentioned, particularly the 
difficulty in finding and recruiting enough qualified case 
managers, especially in a quick response to a surge in need. So 
the contract will fund Catholic Charities USA, both to be 
prepared to provide disaster case management services in the 
event of a future major disaster, but also to pre-identify and 
pre-certify case managers so that they will be ready and 
available when a disaster strikes.
    Senator Landrieu. And I understand this was a competitive 
bid. Can you talk about the other organizations that competed? 
Catholic Charities was chosen, but are there others----
    Mr. Hansell. There were several bidders. Catholic Charities 
was chosen. We can provide you with a list of the bidders, if 
you would like. We will be happy to do that.
                  INFORMATION PROVIDED FOR THE RECORD
    The bidders that applied for this contract were Abt Associates, 
Inc., Catholic Charities USA, and Louisiana Family Recovery Corps.

    Mr. Hansell. But it was an open, competitive process, open 
to any bidder that was interested.
    Senator Landrieu. Does anybody else want to comment on 
that?
    Let us talk about the privacy issue for just a minute, 
because this continues to come up in our review. Does anybody 
want to comment about the current privacy issue and why it is 
in place? Is it necessary? Are there modifications that we 
could look to so that we can better serve the individuals that 
we are trying to serve? And again, in disasters, these can be 
very poor individuals who have been a part of some kind of 
government help and assistance through either Medicaid, 
housing, or job placement. It can be middle-class families who 
have never been a part of any kind of government support system 
and are unfamiliar with how to navigate.
    So let us talk about the privacy issue. I don't know who 
wants to start, Ms. Zimmerman, perhaps. And I would really like 
to hear from you, Ms. Guma, on this.
    Ms. Zimmerman. Sure. I would be happy to. First off, the 
number one thing for FEMA is to protect the privacy rights of 
the individuals, the disaster survivors. But through this 
process, we know that we need to provide information to the 
service providers for the disaster case management. So it is my 
understanding we now have a better process in place so that 
when an agency requests the information, we are able to 
provide, working with the State and the local provider to get 
that information that they need to be able to service the 
applicants when they come in.
    Senator Landrieu. Well, can you articulate for me the 
reason that we would have to keep FEMA records private? Is it 
that we are trying to protect them from what, from being 
exploited by people trying to help them, or exploited by 
unscrupulous salespeople, or what are we protecting them from?
    Ms. Zimmerman. The latter of that. We gather a lot of 
information when we are putting people into our database to 
assist them through our programs of individual assistance--
Social Security numbers, a lot of personal information. Not all 
of that information is needed when it goes forward to the other 
providers for case management. So we are able to release that 
other information, names, addresses, and phone numbers. So we 
do have a process in place to do that.
    Senator Landrieu. Yes.
    Ms. Zimmerman. So I believe that has improved over time.
    Senator Landrieu. Because I most certainly can understand 
keeping Social Security numbers, banking information private, 
but information about names, number of children in the 
household, previous employment, if the father was a welder, 
that might be helpful for the case manager to know because he 
is looking for a job and what was his previous employment, 
things that would be useful to help people.
    Ms. Guma, do you want to comment about that?
    Ms. Guma. Yes, I do. I want to first acknowledge that we 
have made tremendous progress with both FEMA and HUD in this 
regard. Having said that, we have gone down a very difficult 
journey to share information, and when we started the process 
of requesting information, both on households living in 
trailers and households in the DHAP program, even the process 
of getting aggregate data, which not even client level with any 
identifying information, in the initial phases was a struggle. 
We have, again, made leaps and bounds in information sharing 
and it now flows much more easily.
    I guess one of our concerns, just speaking back to one of 
our recommendations, is that the process really does need to be 
institutionalized. It is wonderful that we have great partners 
now at the table with us who work really well. We can make 
requests and get the information so quickly and we tremendously 
appreciate that. But our concern is that in a new place, on a 
new day, at a new time, it would perhaps be a different 
scenario for that government body seeking that information. So 
we do think it is important.
    We also encountered a challenge with FEMA and HUD where 
there was not clarity about who was allowed to give us data, 
and I think that has been something that has been worked out. 
But when we have sought data in the past from HUD, there has 
been some confusion about who had the authority to release it, 
and I do think we have made progress on that front. But it was 
a big challenge for us for a very long time.
    Mr. Tombar. If I may, Ms. Guma is right. There was a 
challenge with providing the data, and the data that the State 
was requesting was full access to all data that we had because 
they wanted to know as much as they possibly could about the 
families, and it made sense to be able to provide the 
comprehensive type of case management that you reference.
    What we learned was that the Privacy Act prohibited HUD 
from being able to provide that data because we did not have 
the type of arrangements and agreements and approvals through 
the systems of record for those data to be able to provide that 
to the State. But in a conversation with Ms. Zimmerman and 
others over at DHS, we found that FEMA did, in fact, have 
ongoing agreements with the State and therefore was able to 
simply, by not making the request for the same data to HUD, but 
simply to FEMA, that FEMA could provide the data.
    And, in fact, I am pleased to announce that for DHAP-Ike, 
where the State of Louisiana has made a request for data that 
was provided to them on behalf of families in DHAP-Katrina, 
just today on a conference call jointly with HUD, FEMA, and the 
State of Louisiana, we think that we have been able to resolve 
that issue so that those data will be able to flow forward to 
the State at sometime soon.
    Senator Landrieu. Well, I just urge you all to stay focused 
on finding the right solution to this issue so that we are 
treating people as quickly as we can, helping them with 
dignity. People want help. They don't want to fill out multiple 
forms giving their name, their Social Security information 
multiple times to different agencies because the law doesn't 
allow the agencies to talk with each other.
    Now, there is a reason why some personal data should be 
protected, but when you are trying to help, it is imperative 
that local officials and local entities, the nonprofits, the 
State, the parishes, particularly because those locals are in 
some way held accountable for the outcomes, so that the Federal 
Government looks down on the City of New Orleans and would say, 
why do you have 10,000 homeless people still? That is a good 
question to the city. Well, if the city says, we don't even 
have information about these people because we can't get it 
other than a door-to-door daily survey, then that is a real 
issue. And I am sure that is true across other places in the 
Gulf Coast.
    Let me do one or two more questions and then we are going 
to move to the second panel. This duplication of benefits 
issue, it is my understanding that Public Housing Authorities 
at State and local levels considered themselves to be 
caseworkers, which required the Mississippi Case Management 
Consortium to close cases with other voluntary agencies to 
avoid duplication of benefits. Could you comment about this? I 
guess it is Fred Tombar with HUD. What are the Public Housing 
Agencies--will they continue to provide case management? Will 
this continue to be judged as a duplication of services, which 
is against the law? Is that the situation? Does anybody want to 
comment or know anything about that? Did GAO look into that at 
all?
    Ms. Brown. We went only as far as looking at the fact that 
there were stops and starts and multiple service providers at 
the same time. We didn't look to see whether there should be--
--
    Senator Landrieu. You weren't looking for the content for 
the services provided, or the quality of the services provided?
    Ms. Brown. We would have liked to have looked at the 
quality of the services provided, but I think the information 
just wasn't there for us to make a judgment on that.
    Mr. Tombar. The duplication of benefits is sort of a term 
of art that has multiple meanings, and you know about it well 
in the context of the Road Home Program and our Community 
Development Block Grant Program and how----
    Senator Landrieu. Small Business Loan Program----
    Mr. Tombar [continuing]. It is a little bit confused with 
it being used in this context. But my understanding is that 
what is at issue here is that there were agreements with one of 
the groups that you have testifying on your next panel, 
Mississippi Case Management Consortium (MCMC), to provide 
services on behalf of some 400 families initially. Those were 
families who subsequently became a part of the DHAP Program and 
were services by Public Housing Authorities (PHAs) in terms of 
the payments that were being made on their behalf.
    And so what we didn't want was precisely the thing that you 
are critical of here, was that we had multiple service 
providers providing the same services on behalf of families. So 
that was the issue, was to not have the Public Housing Agencies 
duplicate services that were already being provided by an 
already contracted service provider.
    Senator Landrieu. Well, I will ask the Mississippi folks to 
clarify that, but let me ask this final question, because I 
really want to get this clear with you all because it is 
important, I think, for those trying to create a better system.
    The National Disaster Housing Strategy calls for HUD to 
continue providing case management services. But if FEMA and 
HHS have an agreement, there still is confusion among the at-
large community about which agency is in charge, and so can you 
comment about who is the lead here on case management? Who 
should people be talking to? Is it FEMA? Is it Health and Human 
Services? Or is it HUD?
    Ms. Zimmerman. As of right now, FEMA has the authority in 
the laws to do disaster case management. With our agreement 
that we have right now with ACF, we have that ability to get 
them on the road within 72 hours to do disaster case 
management. And as we are moving forward to put together the 
permanent program--this is our interim program--then we will 
take that and take the lessons that we have learned and put 
together the program so it is comprehensive and it covers all 
aspects of it. So right now, a State, if they get declared for 
a disaster and need disaster case management assistance, they 
would apply to FEMA for assistance and we would institute the 
program as it is today.
    Senator Landrieu. OK. Well, I, for one, would urge you to 
work as quickly as you can to reach out to HUD, which is an 
obvious agency that needs to be included. And if you think 
about particular populations, the Justice Department may be 
another one in terms of case management. When you think about 
families and the status of family members, whether they were in 
prison when this happened, if they are on probation when this 
happens, for either juvenile cases or adult cases, in some of 
these communities and States it is thousands and thousands of 
people that may be affected. We haven't even looked at the 
coordination that is required with the Department of Justice.
    But definitely with HUD, given that in case management, we 
are learning that what most families needed was permanent 
housing so that they could sort of reestablish themselves, get 
into a church or a synagogue, get into a school, get into a job 
and stabilize themselves until they could figure out when they 
could get back into their original community.
    All right. Thank you all very much. I am going to have to 
move to the next panel.
    As the next panel is coming up, just to save time, I am 
going to go ahead and do brief introductions, and again, thank 
you all very much.
    We have, first, Rev. Larry Snyder, our first witness, who 
oversees Catholic Charities USA's work to reduce poverty in 
America. Rev. Snyder will discuss Catholic Charities' 
experiences under Katrina Aid Today and their work on the ACF 
model for disaster case management that was utilized after 
Hurricanes Gustav and Ike.
    Next, we have Diana Rothe-Smith, who is Executive Director 
of the National Voluntary Organizations Active in Disaster. 
NVOAD is the forum through which nonprofit relief organizations 
share knowledge and resources. She will discuss their proposal 
to improve case management guidelines and programs.
    Dr. Irwin Redlener is President and Co-Founder of the 
Children's Health Fund. Dr. Redlener has testified before this 
Subcommittee many times. We are happy to see him again and hear 
his views on case management.
    Stephen Carr is a Program Director for the Mississippi Case 
Management Consortium. He is also a consultant to ABT 
Associates, through which he contributed extensively to the 
design and writing of the ACF-HHS model that we have just 
talked about.
    And finally, Dr. Monteic Sizer is President and Chief 
Executive Officer of Louisiana Family Recovery Corps. He will 
discuss the Louisiana Family Recovery Corps' disaster case 
management work after Hurricanes Katrina and Rita and the need 
to develop long-term human recovery plans at the Federal level.
    I look forward to all of your testimony, and thank you. 
Rev. Snyder, we will begin with you.

    TESTIMONY OF REV. LARRY SNYDER,\1\ PRESIDENT AND CHIEF 
           EXECUTIVE OFFICER, CATHOLIC CHARITIES USA

    Rev. Snyder. Thank you. Good afternoon, Chairman Landrieu. 
I want to thank you for the opportunity to appear before you to 
discuss the partnership between the Federal Government and 
Catholic Charities USA to provide disaster case management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Rev. Snyder appears in the Appendix 
on page 89.
---------------------------------------------------------------------------
    Catholic Charities agencies have a long history of serving 
those most in need at critical and vulnerable times. The 
services we provide are grounded in the fundamentals of social 
work practice and are delivered in accordance with sound ethics 
and our faith tradition. Case management is a critical 
component of the services provided in local Catholic Charities 
agencies.
    In the interest of time, I would refer you to my written 
testimony, which details the efforts of Catholic Charities in 
the area of disaster response for over 40 years.
    Recently, Catholic Charities USA responded to the 
government's competitive solicitation for a contract to provide 
a Federal Disaster Case Management Program and has been awarded 
a 5-year indefinite duration, indefinite quantity contract for 
these services. And while the overall agreement is for 5 years, 
we have only been authorized and funded to continue disaster 
case management services through March 31, 2010 to the victims 
of Hurricanes Gustav and Ike. Further funding for the 
implementation of the Federal Disaster Case Management Program 
has not been authorized.
    I want to take this opportunity, though, to acknowledge the 
partnership Catholic Charities USA has with the Administration 
for Children and Families of the Department of Health and Human 
Services and the confidence that has been placed in our 
organization with the awarding of this Federal contract.
    At the same time, we have faced a number of challenges 
throughout the process of providing these services, beginning 
with Hurricane Katrina until today. Each time, we have provided 
case management services during a disaster, the players have 
been different, the funding streams changed, the policies and 
procedures have been different, and the forms and requirements 
inconsistent and sometimes conflicting between and among both 
Federal and non-Federal partners.
    Victims of disasters deserve and should receive services 
quickly and through a well-developed system at the national and 
regional levels. This can only be achieved if the resources are 
made available to do this work prior to a crisis.
    When it became apparent that funds were not available to 
implement the Federal Disaster Case Management Program under 
the new contract, our contracting officer notified us that we 
would not be required to respond with a national and regional 
team within 72 hours should these services be authorized. My 
remarks, of course, were prepared before the announcement of 
the IAA ???? between FEMA and ACF, which is, in fact, talking 
about that funding, so we welcome that news today, as well.
    We firmly believe that if we are to avoid the travesty of 
Hurricanes Katrina and Rita, where we saw thousands of people, 
especially those living in poverty and already marginalized, 
left behind, we must invest in a system that responds early 
with a network that can deliver the diversified services 
necessary to meet the needs of those affected.
    Let me tell you a story about one client. James is a 
disabled client in Louisiana whose house was damaged by 
Hurricane Gustav. For an extended period of time, James did not 
receive his disability benefits because the support structure 
was not in place. Through the assistance of a case manager, 
James was able to obtain the documentation to apply for and 
receive his disability benefits. With the back payment he 
received, James is going to replace his roof and move back into 
his own home. While we were able to assist James, the process 
was significantly delayed.
    With the infrastructure of a National Disaster Case 
Management Program in place, the response to James could have 
been far more timely. The investment to do this is small and 
the number of staff required to create and maintain such a 
structure is minimal. In fact, we estimate the total annual 
cost of operating this program to be a little over $2 million.
    The Federal Government historically has provided funding 
for the immediate needs of food and shelter following a 
disaster. But just as critical in the early stages of a 
disaster is the need for case management services. Based on the 
collective experience of our Catholic Charities agencies, I 
offer the following five recommendations to the Subcommittee.
    First of all, fund a single national Disaster Case 
Management Program as part of disaster preparedness, including 
infrastructure and readiness for rapid response.
    Two, establish a lead Federal agency that will have 
oversight and accountability for ensuring that agreed-upon 
outcomes are established and met.
    Three, establish a consistent definition of disaster case 
management and policies and procedures to be adopted by both 
Federal and non-Federal organization.
    Four, identify and implement one database for the 
collection of information that meets the needs of both Federal 
and non-Federal partners with consistency in meeting privacy 
requirements.
    And finally, involve key stakeholders in all aspects of the 
National Disaster Case Management Program.
    I thank you for the opportunity to testify about this 
important work and to make these recommendations based on our 
experience.
    Senator Landrieu. Thank you very much, Rev. Snyder. Ms. 
Rothe-Smith.

TESTIMONY OF DIANA ROTHE-SMITH,\1\ EXECUTIVE DIRECTOR, NATIONAL 
           VOLUNTARY ORGANIZATIONS ACTIVE IN DISASTER

    Ms. Rothe-Smith. Thank you, Madam Chairman. Thank you for 
the opportunity to speak with you today about disaster case 
management and the role of voluntary agencies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rothe-Smith appears in the 
Appendix on page 95.
---------------------------------------------------------------------------
    My name is Diana Rothe-Smith and I am the Executive 
Director with National Voluntary Organizations Active in 
Disaster. National VOAD, as we are more commonly known, is made 
up of the 49 largest disaster-focused nonprofit organizations 
in the country. From the American Red Cross to Catholic 
Charities and the United Jewish Communities, from the Salvation 
Army to Feeding America and Habitat for Humanity, our member 
organizations are the driving force behind disaster response, 
relief, and recovery in this country.
    Historically, voluntary agencies have partnered with 
survivors through the recovery and have done so successfully 
without standardization. In recent years, however, catastrophic 
disasters, funding for case management, and emerging 
organizations providing long-term recovery services have 
necessitated us to look anew at how we define and implement 
disaster case management.
    Recognizing that disaster case management is most effective 
when implemented by local partners as part of a coordinated 
effort for community recovery, the National VOAD Disaster Case 
Management Committee offers these standards as guidance to 
support disaster case management delivery systems locally. 
These draft standards, as they are submitted into the record, 
are not intended to replace organizational policies, but may be 
useful in policy development.
    I want to tell you today about disaster case managers. 
Disaster case managers are the reason why recovery happens in 
this country. If my family and I have been through a natural 
disaster, I sit down with a case manager and she becomes my 
companion on the road to recovery. You see, before we even 
meet, my case manager spends her time learning the ins and outs 
of every resource available to people in my area. And because 
they are normally hired from within the community itself, 
disaster case managers can do so by drawing on their own 
existing networks and contacts.
    The case manager can link me with community services and 
volunteer labor and can help me navigate through the maze of 
governmental programs. Even in the midst of my confusion and 
hardship, trying to put my life back together, my case manager 
is my resource maven, helping me plan for filling in the 
missing pieces of my recovery. The disaster case manager is the 
most important resource for many survivors.
    When Hurricanes Katrina and Rita hit, several members of 
National VOAD participated in a first-of-its-kind case 
management program. By December 2005, Katrina Aid Today put 
case managers in jobs not only along the Gulf Coast, but around 
the country, in all the places where evacuees had been 
resettled. This program was initially funded by international 
donations through FEMA, which were then matched with additional 
nonprofit contributions. Katrina Aid Today was the most 
comprehensive collaborative National Disaster Case Management 
Program in the history of the United States. Because of its 
long history providing disaster case management, the United 
Methodist Committee on Relief was chosen as a lead agency for 
nine partnering faith-based and voluntary organizations.
    Let me tell you about one partner in particular. Lutheran 
Disaster Response was given $7 million as one of the consortium 
members, and per the various agreements, it matched that with 
$7 million of their own donor contributions. Then the case 
manager hired with those dollars found over $29 million worth 
of resources for their clients. That is what I call a return on 
investment.
    As part of this testimony, I submit the Katrina Aid Today 
final report.
    Unfortunately, in the time since Hurricane Katrina, our 
country has entered into a new reality. Nonprofit groups are 
hurting as a down economy means a dip in contributions. An 
increase in recent disasters also means fewer resources to go 
around. Two-thousand-and-eight was one of the most active 
disaster years on record. This means that the resources that 
were once available for clients have decreased or even dried up 
altogether. And because we know that disasters 
disproportionately impact communities that were already 
hurting, we are working in communities that were not well 
resourced to begin with.
    For this reason, survivors of Hurricane Ike or the vast 
flooding in the Midwest this past year did not see the type of 
return on investment that was seen from Katrina Aid Today. 
These communities and the nonprofit partners that comprise the 
local long-term recovery groups are making incredible strides 
to meet the needs of the clients, despite these increasing 
hurdles. However, many of them lack the public-private 
partnership that made Katrina Aid Today such an overwhelming 
success.
    And this is part of the issue. While case managers are the 
backbone of recovery, case management only works if there are 
supplies and resources to fulfill the needs of the clients, and 
there is only so much government systems can do to fill these 
resources. Much of the work is filled by the voluntary agencies 
and the volunteer labor and donated dollars they bring with 
them.
    My point is this. The instinct to create further levels of 
bureaucracy is rarely appropriate given the power of voluntary 
agencies to complete the work faster, cheaper, and with a 
keener sense of the community's underlying needs. The more 
resources that find their ways to these organizations and 
without having to pass several layers of red tape, the more 
real work that can happen for the people who need it.
    Thank you. This concludes my testimony, if there aren't any 
questions.
    Senator Landrieu. Thank you very much. Dr. Redlener.

   TESTIMONY OF IRWIN REDLENER, M.D.,\1\ PROFESSOR, CLINICAL 
  POPULATION AND FAMILY HEALTH, DIRECTOR, NATIONAL CENTER FOR 
 DISASTER PREPAREDNESS, COLUMBIA UNIVERSITY MAILMAN SCHOOL OF 
      PUBLIC HEALTH, AND PRESIDENT, CHILDREN'S HEALTH FUND

    Dr. Redlener. Thanks, Chairman Landrieu. I am very happy to 
be here. I am actually wearing three hats. I am President of 
the Children's Health Fund and I direct the National Center for 
Disaster Preparedness at Columbia University, and to avoid any 
unpleasant feedback from Chairman Mark Shriver, I am also a 
happy, active member of the National Commission on Children and 
Disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Redlener appears in the Appendix 
on page 99.
---------------------------------------------------------------------------
    So in the years since Hurricanes Katrina and Rita 
devastated the Gulf Coastal region, we learned and are still 
learning that many already at-risk children, perhaps 20,000 or 
more, may have survived the initial trauma of a major disaster 
only to find themselves 4 years hence still living with 
extraordinary uncertainty, chaos, and isolation from essential 
services. At the least, and as has been stated by others here, 
we need to learn from this unfortunate situation and make sure 
that future recovery efforts are not plagued, as Hurricane 
Katrina recovery has been, by similar levels of bureaucratic 
confusion and turf battles further complicated by a persistent 
inability to share critical information among relevant 
agencies, and I know you explored this in the last panel. But I 
would say that I would characterize this lack of sharing of 
information as really devastating to the needs of families and 
children, and we are still paying a heavy price for that.
    It is also important to appreciate the fact that the 
additional trauma related not to the storms and flooding, but 
to this mismanaged and dysfunctional recovery, will have 
significant and long-lasting consequences for thousands of 
highly-vulnerable children.
    So what happened? Well, in the first phase of this botched 
recovery, thousands of families needed help that never came. 
They needed obvious sustaining services that fall under the 
general rubric of what we have been referring to as disaster 
case management, and that was then. But now we are in a new 
phase of recovery where much more than access to basic services 
is needed because now we face far more difficult and, sad to 
say, entirely predictable challenges of restoring stability and 
structure and providing emotional and academic remediation when 
much of the damage has already been done.
    As you are aware, Senator, on October 7 of this year, 
Children's Health Fund hosted a roundtable at LSU that involved 
participants from key Federal, State, and local agencies as 
well as many NGOs and local provider organizations. The focus 
of the day-long discussions was single-minded: How can we make 
sure that in future large-scale disasters we can do more to 
protect and stabilize families while they wait for 
renormalization of their lives and communities? And we all 
recognize that one of the key strategies to achieving this goal 
is to make sure that services and stability are provided by a 
cohesive and effective system of case management.
    Although the Post-Katrina Emergency Management Reform Act 
from 2006 established a Federal responsibility for disaster 
case management, it has become abundantly clear that much 
remains to be done to strengthen the Federal disaster case 
management structure and functionality. To that end, we are 
very happy to learn that just this morning, the interagency 
agreement was signed between FEMA and HHS, although I did 
actually think it was going to be HUD on board, as well, but 
apparently I heard that it was FEMA and HHS, and that is a 
great first step.
    But of greater significance is the fact that the National 
Recovery Framework and Stafford Act reform are now on the 
immediate horizon, and the goal of both of these efforts is 
straightforward. Let us use the experiences of the last 4 years 
to be certain that proposed legislative modifications and the 
new operational guidelines provide assurances that recovery 
from future disasters is much more effective and responsive to 
the critical needs of all survivors.
    I also believe that, although local flexibility in 
implementing programs is clearly important, and it is, there 
must be overarching federally-designated case management 
principles which apply to all federally-funded programs. These 
programs need to be accountable and monitored with clear 
outcomes.
    I just want to conclude with the recommendations that came 
out of our roundtable, which really coalesced around three 
primary recommendations for the Subcommittee's consideration in 
drafting any new legislation. I am going to add a fourth from 
my own work and experiences in the Gulf, which actually started 
just a few days after Hurricane Katrina. And some of these were 
already mentioned by Rev. Snyder.
    But I think it is important that--and maybe most 
important--a single lead Federal agency with experience and 
expertise in complex case management should be designated to 
coordinate and direct implementation of all Disaster Case 
Management Programs. I still actually am not clear why this has 
ever been FEMA's responsibility, since it is not an area of 
expertise or experience that they have and we have other 
Federal agencies that could easily fit this into their ongoing 
agenda, so let us say AFC, for instance, at HHS--ACF, rather. 
And I know this is something that may or may not be taken up in 
the legislation on the table, but I think we should at least 
think about why FEMA in this. FEMA is a spectacularly good and 
capable organization, but is this a square peg in a round hole 
as far as case management is concerned?
    Second, a single Federal model, what I refer to as 
overarching principles, for case management should be 
established that is clearly defined, comprehensive, responsive 
to local conditions, accountable, and, of course, fully and 
appropriately funded.
    Third is we must have mechanisms, as you pressed hard on in 
the earlier panel, to ensure rapid, sufficient, and efficient 
sharing of client information among relevant agencies and 
provider organizations.
    So let me just say in bringing this to a close that while 
this next recommendation is not part of the formal roundtable 
consensus, it is based on what we actually know about disaster 
vulnerability, population resiliency, and the challenges 
associated with recovery. The fact is that populations with 
significant pre-disaster adversity, including poverty and 
chronic inadequacies in health care and education, consistently 
and predictably fare the worst in all phases of disasters as 
compared to less-disadvantaged populations. So I think it is, 
therefore, important that a clear commitment to alleviating 
social and economic disparities be a central mission of long-
term disaster mitigation and recovery planning.
    Finally, there is much unfinished business with respect to 
the children of Hurricane Katrina. For example, what about 
those kids that were exposed to formaldehyde in the trailers? 
What are we doing for them? What is happening? And as we 
deliberate on strategies to improve recovery effectiveness in 
the aftermath of future disasters, that we not forget the 
ongoing, overwhelming challenges being faced by the children 
and families affected by the storms of 2005. They are still 
waiting.
    Senator Landrieu. Thank you very much.
    And I noticed some people are pulling their shawls a little 
tighter. I have noticed the room is cool. I have tried to get 
it warmed up. We will see if that happens.
    Mr. Carr.

TESTIMONY OF STEPHEN P. CARR,\1\ PROGRAM DIRECTOR, MISSISSIPPI 
                   CASE MANAGEMENT CONSORTIUM

    Mr. Carr. Good afternoon, Senator Landrieu. My name is 
Stephen Carr. I am the Program Director for the Mississippi 
Case Management Consortium. On behalf of the leadership and 
field management teams of MCMC, I thank you for the opportunity 
to speak with you today about the topic of disaster case 
management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Carr appears in the Appendix on 
page 103.
---------------------------------------------------------------------------
    We are certainly proud of the accomplishments we have 
achieved to date and look forward to continuing our work with 
those individuals and families who continue to struggle toward 
recovery over 4 years after the impact of Hurricanes Katrina 
and Rita. I am prepared and welcome the opportunity to answer 
any questions you might have with regard to MCMC and to discuss 
any information that was provided to you in my written 
testimony.
    In addition to that written record, I am thankful for the 
opportunity to present this opening statement to you, as well. 
We, the leadership team of MCMC, are often asked the question, 
why is it taking you so long to complete your work? This 
question is understandable when asked by someone who has never 
experienced a disaster of any form in his or her own life, and 
yet we know that that would be a very small group of people 
walking this earth. What is not understandable is when this 
question is asked by members of the disaster recovery community 
itself or even those inside Federal and State agencies whose 
job it is to support the efforts of projects like MCMC.
    I offer in response to that particular question a very 
straightforward answer. The job of recovery is simply not 
complete.
    The cases that we are currently working include the most 
vulnerable populations among us who have the most severe 
barriers to recovery to overcome. The work that we do as 
disaster case managers is what I refer to as messy casework. 
This work requires us to get our hands dirty, so to speak, and 
it is not work that is done by the faint of heart. The barriers 
that could be overcome easily have been cleared. What are left 
are the barriers that take the most time and coordinated effort 
to navigate. Easy solutions, if there ever were any, are a 
thing of the past, and disaster case managers are working 
harder now at this point in time to find creative solutions to 
a complex mix of problems facing disaster victims.
    There were many critics of the leadership team of MCMC as 
we began to set up the infrastructure that would be necessary 
to implement the program according to the FEMA program 
guidance. The main source of that criticism was that the 
program guidance included no funding for direct services that 
would be used to assist case managers in meeting clients' 
recovery needs. And yet, as I have witnessed time and again 
over the last couple of years, the most successful case 
management is done often in the absence of easily obtained 
resources.
    Creativity, determination, and a true belief that every 
problem presents an opportunity for excellence to emerge are 
the hallmarks of high-quality disaster case managers, and those 
are the traits that are representative of the men and women who 
make up the ranks of MCMC case mangers. We have shown that in 
spite of the many obstacles that are the legacy of Hurricane 
Katrina, progress can be made and recovery can be achieved, 
even without the presence of direct service dollars for case 
managers.
    The leadership team of MCMC believes that striving toward 
perfection is a much better approach than waiting on perfection 
to manifest itself before acting. Had we waited for the perfect 
program or the perfect program guidance, we would not have been 
able to facilitate the recovery of so many individuals and 
families and we would have been standing on the sidelines 
watching. This was simply not an acceptable alternative.
    MCMC continues to look forward and hopes to leave the State 
and the affiliates a platform to continue their work with 
clients once our period of service come to an end. To that end, 
we recently launched the Adopt a Family Program in order to 
continue to raise awareness and needed resources for the 
clients we all serve. More information about this program can 
be found on the MCMC website, www.mc-mc.org.
    In closing, I want to share this story. One affiliate 
supervisor recently told me that she had never been a part of 
such an exciting and professional program in her entire 27-year 
career as a social worker in the public sector. She challenged 
me to think of ways that this model could be duplicated within 
the larger social service sector in order to address many of 
the social problems facing our country today. Indeed, a 
collaborative and coordinated program like the one that MCMC 
has been able to establish presents the possibility for States 
and communities all around the country to address issues like 
school drop-out rates, the rising number of homeless veterans, 
and the challenges presented as a result of illiteracy.
    While that work may loom on the horizon, our immediate 
concern continues to be on disaster recovery. The leadership 
and field management teams, our affiliate organizations, and 
all of our case managers will not rest until we have done all 
that we can not only to overcome the barriers to recovery that 
we experience, but also to shape future programs so that when 
disaster strikes again, we will be ready to respond in a 
systematic, organized, and professional fashion that is worthy 
of this great nation.
    Senator Landrieu, thank you once again for your time and 
attention to this important aspect of disaster recovery.
    Senator Landrieu. Well, thank you, Mr. Carr, for that very 
passionate and inspirational testimony. We appreciate it.
    Mr. Sizer.

 TESTIMONY OF MONTEIC A. SIZER, PH.D.,\1\ PRESIDENT AND CHIEF 
       EXECUTIVE OFFICER, LOUISIANA FAMILY RECOVERY CORPS

    Mr. Sizer. Thank you, Chairman Landrieu, for the 
opportunity to speak with you today about the challenges faced 
by Louisiana survivors, specifically those families impacted by 
Hurricanes Katrina, Rita, Gustav, and Ike.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sizer appears in the Appendix on 
page 161.
---------------------------------------------------------------------------
    I would also like to publicly thank you, Chairman Landrieu, 
for the remarkable support you have shown to the Louisiana 
Family Recovery Corps, as well as to so many disaster recovery-
related organizations and nonprofits across the State of 
Louisiana. You have certainly been a friend to those 
Louisianans impacted by the various hurricanes.
    Again, my name is Monteic Sizer. I am the President and CEO 
of the Louisiana Family Recovery Corps. The Recovery Corps was 
founded after Hurricane Katrina by the State of Louisiana in 
2005. Since 2005, we have served more than 30,000 households, 
and that equates to approximately 100,000 individuals across 
the State of Louisiana. We have been a part of every case 
management program in the State of Louisiana since 2005, that 
the Federal Government has launched.
    The Recovery Corps is on record for its advocacy on behalf 
of Louisiana citizens, especially the most vulnerable 
populations, which are comprised of children, the elderly, 
persons with disabilities, people with mental illness, etc. I 
have submitted for the record, Madam Chairman, extensive detail 
regarding both problems, as well as the solutions associated 
with what we need to do in order to help so many people who are 
still struggling to recover.
    So for the brief time I have remaining, Madam Chairman, I 
would like to focus on a few things, and I would also like to 
talk about a few common challenges that ran across the three 
Federal case management programs.
    Namely, there was always--and I think this has been 
mentioned before--late and inconsistent program guidance that 
came down from the Federal Government. I think it was mentioned 
that there is a need for an organized, systematic, outcome-
based IT platform that is uniform. There are certainly 
challenges all of us faced, such as: Data sharing challenges, 
late payment for services rendered on behalf of Louisiana 
citizens, and cost reimbursement challenges.
    Considering the fact that everything we received from the 
Federal Government came in late, and the fact that we were 
given an unreasonable timeline with stringent time frame to 
operate. The situation was very uncomfortable and we were not 
able to help people who had significant needs and multiple 
challenges. I would also say there was limited oversight 
provided, and the abrupt ending of programs essentially left 
Louisiana citizens in limbo. Many of them came to rely on the 
case managers they had, but the Federal programs had a tight 
time frame by which they were to end. Consequently, the case 
managers had ethical dilemmas; namely they had families under 
their care, and yet the programs were ending, so they had to 
let these individuals go. We continue to hear over and over 
again the challenges that were posed to many case management 
providers, as well as licensed social workers, psychologists, 
and others who rendered services on behalf of these wonderful 
Louisiana citizens.
    It was mentioned that success was not clearly defined as to 
what it is the Federal Government wanted to achieve by way of 
helping Louisiana, Mississippi, and Texas citizens. Many 
clients certainly fell through the cracks. I think you 
identified the time frame here. Certainly, we are one of the 
few organizations that provided case management, and while that 
money came from the Department of Social Services, we were also 
later involved in some of the Federal projects. We closed out 
Katrina Aid Today on behalf of the Federal Government. We were 
going to be part of D.C.M.P. phase two, but it never got off 
the ground.
    We were one of the few organizations that actually received 
client data from FEMA. We had all the individuals in each 
trailer park disaggregated by the name, disability, age, race, 
you name it. We developed a rapid deployment model, with which 
we were ready to move froward, but the money never came. 
Therefore, we could not provide the services in which we were 
dubbed by the State of Louisiana to provide. With no money, we 
couldn't provide the service. We had information, we knew where 
people were, and we had relationships with nonprofits 
throughout the State due to our earlier involvement with money 
from the Department of Social Services.
    So now that I have discussed some of the common 
programmatic challenges, I would like to talk about some of the 
structural recommendations. I guess the bottom line is, you can 
have wonderful things on paper, but if you don't have the 
proper systems and structures in place, then you are likely to 
receive the same results as the ones we had with the previous 
three case management models.
    Senator Landrieu. You have got an additional 30 seconds to 
a minute, but go ahead.
    Mr. Sizer. Thank you, ma'am. I will be quick. There needs 
to be a lead coordinating case management entity with human 
services experience. There needs to be a standard definition of 
case management. Certainly, there needs to be an identified, 
selected IT platform, and a modification of the Stafford Act to 
support case management services.
    There needs to be identification and a blending of human 
services dollars in order to be able to assist with case 
management provision. Again, we need to work through the data 
sharing agreements between Federal agencies and State agencies.
    There certainly needs to be money advanced quickly to the 
State to begin services after a declared disaster. Furthermore, 
we need to prepare and have these things in place prior to 
disasters, especially in disaster-prone areas.
    I would also say that at the State level, we have to have 
integrated agency functions that work across human services 
entities, and have those plans tied to the Governor's Office of 
Homeland Security's plans. We need this because the bottom line 
is, these programs end. If there is nothing in place to be able 
to receive these individuals post-closing of programs, our 
citizens are likely to be in limbo. I also believe that it is 
part of the State's responsibility, due to receiving taxpayers' 
money, to provide efficient and effective programs and services 
to the citizens they serve.
    With that, Madam Chairman, I will be respectful of the time 
and conclude my remarks and welcome any questions that you may 
have.
    Senator Landrieu. I have several questions, and 
unfortunately, we are only going to have another 10 or 15 
minutes, and I am going to have to close the hearing slightly 
early.
    But let me begin with you, Doctor, and also with you, Ms. 
Rothe-Smith. I tell my staff I love charts, because when you 
put them out in the right way, it is so clear and you just 
can't fudge it. And when you look at this chart,\1\ there were 
two entities in the entire country that stood up to help people 
as the Federal Government just didn't have any case management 
systems in place, and that was, according to this, Katrina Aid 
Today, which stood up in December 2005, and you all did that by 
marshaling the resources of the 30 or so largest nonprofits in 
the country and put your good resources together and built a 
model where there was none.
---------------------------------------------------------------------------
    \1\ The chart referred to by Senator Landrieu appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    And then under--because I remember when this was done under 
the extraordinary work of Governor Blanco in the face of having 
nothing offered in this particular area--the Louisiana Family 
Recovery Corps, which was stood up primarily with State 
funding, as I recall.
    Mr. Sizer. Yes.
    Senator Landrieu. Do you remember how much initial funding 
the State put up? Do you know how much it was?
    Mr. Sizer. Through the Department of Social Services, it 
was about $22 or $26 million.
    Senator Landrieu. Twenty-six-million dollars toward this 
effort. So I am going to rely on your two efforts, to really 
give some good information about the early days because you all 
were there, what people really needed in the very early days.
    I am extremely impressed with what Mississippi has done, as 
well. Your work, from what I can tell, and from your passionate 
testimony, has really added a tremendous amount to this debate 
as we shape this program that is going to have to work much 
better, much more quickly, much more comprehensively.
    So let me ask you, Ms. Rothe-Smith, how should we define 
when a case should be closed, or maybe I should say, how do we 
define success when we are dealing with families? Or how did 
you all define success so that you could report to your own 
donors a proper evaluation of the work that you did? How would 
you explain this definition and these conclusions to your 
donors or contributors?
    Ms. Rothe-Smith. Our definition of success or what we 
define as recovered is completely determined based upon the 
local community and the needs of the individual client and 
family. So the term ``recovered'' is determined between the 
client, his or her family, and the case manager that is working 
with them.
    Senator Landrieu. And what they asked for----
    Ms. Rothe-Smith. Yes.
    Senator Landrieu [continuing]. If they walked in and said, 
we need a refrigerator, you got them one, that was success?
    Ms. Rothe-Smith. Yes.
    Senator Landrieu. OK. If they walked in and said, we need 
an apartment, you got it for them, that was success?
    Ms. Rothe-Smith. Yes. A recovery plan is developed right in 
the beginning between the client and the case manager, and then 
the process by which it is achieved is what determines success.
    Senator Landrieu. And how about you, Mr. Sizer? How did you 
all frame your success or your goals when you started the 
program?
    Mr. Sizer. Yes, ma'am. We determine it in three ways. 
Namely, clients come in and identify what it is they believe, 
based on an assessment, their needs are.
    Second to that, we place accountabilities on agencies we 
work with to ensure they help the clients meet their need 
objectives.
    And third, we determine success by what clients actually 
contributed towards their own success because oftentimes, it 
takes some creative initiative on behalf of people who have 
been impacted to also do things in accordance with their 
desired recovery goals. So it is what individual families bring 
to the table. It is what the case provider does on behalf of 
the clients, and also what those entities do in conjunction 
towards the success of an identified plan. That is done between 
an impacted family and a case manager.
    Senator Landrieu. Mr. Carr, let me ask you. How did you 
all, when you started your program, or how do you currently 
define success?
    Mr. Carr. Sure. I want to clarify one thing, and that is 
that the Katrina Aid Today model had a presence in Mississippi 
throughout its tenure.
    Senator Landrieu. And they had a presence in all the 
States, I think.
    Mr. Carr. Correct. We had five affiliate agencies in 
Mississippi throughout the length of its operation. I began as 
Program Director for MCMC during phase one and then continues 
on to phase two. So there has not been a break in case 
management activity in Mississippi. What I will say is that as 
time goes on, the case management has gotten better. We have 
done a better job because we are able to focus locally. At the 
height of Katrina Aid Today, we had somewhere around 50 case 
managers in Mississippi. At the beginning of phase one for the 
MCMC, we had almost 300 because the need was there and we were 
able to document the need and be able to procure funds.
    We define success based on the recovery plan. We use a 
holistic model. For me and what we teach in our training is 
that when a client is self-determined, that is a good 
indication of recovery. When that client is able to access 
resources and services on his or her own, that is a point at 
which case managers should consider that case for closure, when 
they don't need us to take them or advocate for them to HUD or 
for a voucher or for a refrigerator or for an apartment. When 
they show signs that they are able to function in that arena on 
their own, that is what we call self-determination, and that is 
when we look at case closure. We leave the client with a 
recovery plan that they use as a road map well beyond our 
involvement with that case.
    Senator Landrieu. OK. We covered this in the first panel, 
but I would like your individual impressions on this privacy 
issue and just some brief--each a brief suggestion as to how we 
might approach it, I don't know, maybe starting, Rev. Snyder, 
if you have something you want to add on this privacy issue, 
but anyone that wants to speak to it, because we have got to 
solve this as we move forward. Does anybody have a suggestion 
about how it could be done or something we should look to? Ms. 
Smith, would you like to comment, or Rev. Snyder?
    Rev. Snyder. I do not have a suggestion to show how we 
could actually solve that other than to say that, in fact, I 
mean, it is something that is very critical and that we do need 
to find a way to be more effective with how we do that. But I 
do not personally have a suggestion.
    Ms. Rothe-Smith. I don't have a suggestion for the Federal 
family, but the way it is resolved through the voluntary 
agencies is usually through a technology solution called the 
Coordinated Assistance Network, and it is a way that the 
voluntary agencies provide information to one another about a 
client in the family through shared mechanism so that the 
duplication is diminished, but also the need for the client to 
share that information again and again, as well.
    Mr. Carr. Senator Landrieu, if I could add, the sharing of 
a FEMA number is critical for de-duplicating effort. In the 
State of Mississippi, when we were asked to set up phase one, 
we requested data from FEMA. We got names, addresses, telephone 
numbers. We didn't get FEMA numbers. Identifying information 
such as that is critical for us. We requested information from 
our affiliates. We got 17,000 names. We compared that to the 
information that we got from FEMA, 5,000 names. Do you know how 
many John Smiths there are in the State of Mississippi? And a 
lot of them we got that didn't have phone numbers or addresses. 
A key identifier, a FEMA number, is critical for especially 
contractors.
    So for me, a suggestion is that once FEMA or HHS or HUD 
enters into a contractual agreement with a service provider, 
that they give that information to that contractor, and then it 
is our responsibility to hold that information confidential, 
not sell FEMA numbers, etc. But when we are not given the trust 
to handle information in a way that helps us serve clients more 
efficiently, quite frankly, it is irresponsible.
    Senator Landrieu. Let me ask, Rev. Snyder, if I could, 
because you all have the contract for responding now, Catholic 
Charities does, and if this issue of privacy is not worked out, 
I am not sure how effective that next response will be. But 
also, or a different subject, how do you protect against 
secondhand trauma to case managers, because in some instances 
when the situations are very difficult, we found that some of 
the people that needed the most help after the first couple of 
weeks or months were the first responders themselves, the 
nurses who just collapsed, or the case workers that just 
couldn't take it anymore. So are we thinking about how to deal 
with that in this whole response, psychological support and 
case management for the case managers?
    Rev. Snyder. I think that is an excellent point, and I 
guess I would go back to what our experience was after 
Hurricanes Katrina and Rita in that, fortunately, we did have a 
large network of case managers to draw upon and many of them 
came from throughout the country to Baton Rouge or to New 
Orleans, to Biloxi. An agency would send--Albany, New York, for 
example, sent four or five people on a rotating basis for 6 
months to Baton Rouge, which allowed the local folks, who were 
dealing with their own trauma, to have that time, that space.
    I look at the days just beyond Hurricane Katrina at how the 
folks who themselves were affected also could not help 
themselves from working and reaching out. Until they knew there 
was someone else who was qualified to come in and take their 
place and give them the space, they wouldn't rest. So I think 
that is something that we have to make sure is there.
    We also had some mental health services that we brought in 
for whole agencies that would deal with case managers. There 
was take a day, just 1 day a month, to try to address that. So 
I agree with you that is a critical piece to help prevent that 
burnout.
    Senator Landrieu. And, Dr. Redlener, do you want to comment 
about that at all? I know your focus has been children, but it 
has also been mental health.
    Dr. Redlener. Yes. And actually, I would like to comment 
about the previous question, if I might, also, Senator.
    Senator Landrieu. Go ahead.
    Dr. Redlener. OK. So this issue about the privacy is 
extraordinarily important. We face this all the time in medical 
practice, as well, obviously. And I think the key--there are 
three steps, really, that I would suggest. One is that we 
really have to have the concept ingrained of a one-stop shop 
for Federal services. That means that you enter the system and 
you enter then the service purview of any major agency of the 
Federal Government that you might need.
    And second, along with that would go this standardized 
database, so there is one time where people fill out the data 
forms and that is it, and that form is shared among people.
    But the third and critical step, I think, is to simply at 
intake ask parents for permission to share data. That is the 
end of the privacy problem. All you have to do is you have to 
sign, obviously, an appropriate form that is readable that is 
explained to families that says, in order to help you, we would 
like to be able to share your information with relevant 
agencies. These are the safeguards. Ninety-nine-point-nine 
percent of families will sign it, and to me, that is a very 
simple solution to what otherwise is a very complex problem 
that would require law changes and regulations and all sorts of 
things that might be very long in coming. So I would just 
recommend that.
    Senator Landrieu. OK. I have got to, unfortunately, end, 
but I am going to give each of you 30 seconds. If there is 
something I didn't cover, something you want to mention, this 
would be the time to do it. We will start with you, Dr. Sizer.
    Mr. Sizer. Again, thanks, Chairman Landrieu, for the 
opportunity. I will just mention the issue of reintegration. 
Many of our citizens were deported to other parts of the 
country and have yet to return. I think trying to find a way in 
which to identify those individuals and bring them back home 
and help them get reestablished will be critically important.
    The second issue I will raise is the issue of cultural 
competency. I certainly welcome the national model to descend 
on the State, especially when there is a catastrophic event. 
However, I will also mention that understanding the local 
players, what transpires and what takes place, is critically 
important because you could have well-meaning efforts and 
unintended negative consequences.
    So those are the other two points I would like to raise.
    Senator Landrieu. Thank you. Mr. Carr.
    Mr. Carr. Senator Landrieu, I wanted to circle back to the 
question that was raised with HUD about duplication of 
benefits. I use the term duplication of effort because that is 
what we are trying to prevent. And the issue that you raised 
was, I believe, in my written testimony where I talked about 
silos. Whatever we can do to prevent silo behavior, either 
within an agency or within Federal programs altogether, the 
better off we are.
    The issue of one case manager per program is an example of 
HUD having DHAP case managers, FEMA having MCMC case managers, 
and others trying to serve the same client.
    Senator Landrieu. We need one case manager per family.
    Mr. Carr. Per family, that has access----
    Senator Landrieu. One case manager per family.
    Mr. Carr [continuing]. To all resources. Correct. So that 
was the issue that--whatever we can do to prevent silos. 
Families benefit. We have a consistent, systematic structure. 
And that is what is needed most in order to be cost effective 
and most impactful on the families that we are serving. Thank 
you.
    Senator Landrieu. Thank you. Dr. Redlener.
    Dr. Redlener. A cautionary note about defining when a case 
is closed because it is a very dynamic situation and I wouldn't 
necessarily depend on a decision made between a family and a 
case manager at point X that at X-plus-6 months, the situation 
will be the same. And what we are learning from this prolonged 
dislocation and recovery is that the definition is clear. You 
need a stable, safe home. You need access to essential 
services, schools and health care. And you need some way of 
getting into a livelihood, returning to a livelihood.
    Those should be the criteria. Those are objective criteria 
that could be combined with a family's understanding of what 
they think they need. But if they don't have stability and 
structure, even if today they say, things are fine, we don't 
need you, we have already got the refrigerator, 6 months from 
now, you could have a family struggling with horrible problems 
of poor access to health care, academic failure, and a lot of 
other stress and mental and emotional health issues that will 
need to be taken care of down the road. So I think we should be 
very clear about what we mean by a reestablished, renormalized 
situation for families.
    Senator Landrieu. Thank you. Ms. Rothe-Smith.
    Ms. Rothe-Smith. I want to highlight a comment that Rev. 
Snyder illustrated earlier, and that is that while Katrina Aid 
Today started in December 2005, the organizations that were 
part of that used a model that had been in existence for quite 
a long time, and the organizations like Catholic Charities USA, 
UMCOR, Lutheran Disaster Response, and the American Red Cross 
and others have been providing disaster case management for 
decades. So I would strongly encourage to really look and to 
continue to look to them as the experts that have been doing 
this work and will continue to do this work regardless of the 
models that come out.
    Senator Landrieu. Thank you very much. Rev. Snyder.
    Rev. Snyder. Thank you. I have already talked about my 
concern for the funding of a national infrastructure, so I 
guess I would like to end with saying that let us not lose 
sight of the need for flexibility, that even though we are 
saying 18 months of case management should be enough, in some 
cases, it is not. I know our local providers right now who are 
working on Hurricanes Gustav and Ike have written a letter and, 
I think, made a good case on the fact that because case 
management did start a little late or whatever, that it still 
might need a little more time. So just, again, the need for 
flexibility in whatever services we are trying to provide.
    Senator Landrieu. OK. I really want to thank our FEMA 
Director for staying, the HUD Director for staying and 
listening to the testimony. We really appreciate the way these 
agencies are really leaning forward to work better and faster, 
with all the other pressures that the Administration and 
Congress has before it. But this Subcommittee is focused on 
staying on the job until the job is done, to get better laws in 
place, better procedures in place, better overall response and 
recovery.
    And in that, I will announce I will be sending several 
staffers to the international conference on disaster response 
and recovery. I, myself, can't attend, but we will be sending 
several staffers and we will ask the Administration to send 
people to Kobe, Japan, which will be hosting an international 
conference on this and other subjects related to recoveries 
from disasters. That city will be celebrating its 15th year of 
recovery from a great earthquake. So there will be high-level 
individuals, elected officials, community leaders, I am 
assuming from all over the world.
    So what we are doing here is going to help frame what we do 
in the United States, but we are hoping to share that 
information, of course, internationally to help victims of 
major disasters everywhere. So we thank you for your testimony 
and we will put it to good use.
    The hearing is adjourned.
    [Whereupon, at 4:29 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 56147.001

[GRAPHIC] [TIFF OMITTED] 56147.002

[GRAPHIC] [TIFF OMITTED] 56147.003

[GRAPHIC] [TIFF OMITTED] 56147.004

[GRAPHIC] [TIFF OMITTED] 56147.005

[GRAPHIC] [TIFF OMITTED] 56147.006

[GRAPHIC] [TIFF OMITTED] 56147.007

[GRAPHIC] [TIFF OMITTED] 56147.008

[GRAPHIC] [TIFF OMITTED] 56147.009

[GRAPHIC] [TIFF OMITTED] 56147.010

[GRAPHIC] [TIFF OMITTED] 56147.011

[GRAPHIC] [TIFF OMITTED] 56147.012

[GRAPHIC] [TIFF OMITTED] 56147.013

[GRAPHIC] [TIFF OMITTED] 56147.014

[GRAPHIC] [TIFF OMITTED] 56147.015

[GRAPHIC] [TIFF OMITTED] 56147.016

[GRAPHIC] [TIFF OMITTED] 56147.017

[GRAPHIC] [TIFF OMITTED] 56147.018

[GRAPHIC] [TIFF OMITTED] 56147.019

[GRAPHIC] [TIFF OMITTED] 56147.020

[GRAPHIC] [TIFF OMITTED] 56147.021

[GRAPHIC] [TIFF OMITTED] 56147.022

[GRAPHIC] [TIFF OMITTED] 56147.023

[GRAPHIC] [TIFF OMITTED] 56147.024

[GRAPHIC] [TIFF OMITTED] 56147.025

[GRAPHIC] [TIFF OMITTED] 56147.026

[GRAPHIC] [TIFF OMITTED] 56147.027

[GRAPHIC] [TIFF OMITTED] 56147.028

[GRAPHIC] [TIFF OMITTED] 56147.029

[GRAPHIC] [TIFF OMITTED] 56147.030

[GRAPHIC] [TIFF OMITTED] 56147.031

[GRAPHIC] [TIFF OMITTED] 56147.032

[GRAPHIC] [TIFF OMITTED] 56147.033

[GRAPHIC] [TIFF OMITTED] 56147.034

[GRAPHIC] [TIFF OMITTED] 56147.035

[GRAPHIC] [TIFF OMITTED] 56147.036

[GRAPHIC] [TIFF OMITTED] 56147.037

[GRAPHIC] [TIFF OMITTED] 56147.038

[GRAPHIC] [TIFF OMITTED] 56147.039

[GRAPHIC] [TIFF OMITTED] 56147.040

[GRAPHIC] [TIFF OMITTED] 56147.041

[GRAPHIC] [TIFF OMITTED] 56147.042

[GRAPHIC] [TIFF OMITTED] 56147.043

[GRAPHIC] [TIFF OMITTED] 56147.044

[GRAPHIC] [TIFF OMITTED] 56147.045

[GRAPHIC] [TIFF OMITTED] 56147.046

[GRAPHIC] [TIFF OMITTED] 56147.047

[GRAPHIC] [TIFF OMITTED] 56147.048

[GRAPHIC] [TIFF OMITTED] 56147.049

[GRAPHIC] [TIFF OMITTED] 56147.050

[GRAPHIC] [TIFF OMITTED] 56147.051

[GRAPHIC] [TIFF OMITTED] 56147.052

[GRAPHIC] [TIFF OMITTED] 56147.053

[GRAPHIC] [TIFF OMITTED] 56147.054

[GRAPHIC] [TIFF OMITTED] 56147.055

[GRAPHIC] [TIFF OMITTED] 56147.056

[GRAPHIC] [TIFF OMITTED] 56147.057

[GRAPHIC] [TIFF OMITTED] 56147.058

[GRAPHIC] [TIFF OMITTED] 56147.059

[GRAPHIC] [TIFF OMITTED] 56147.060

[GRAPHIC] [TIFF OMITTED] 56147.061

[GRAPHIC] [TIFF OMITTED] 56147.062

[GRAPHIC] [TIFF OMITTED] 56147.063

[GRAPHIC] [TIFF OMITTED] 56147.064

[GRAPHIC] [TIFF OMITTED] 56147.065

[GRAPHIC] [TIFF OMITTED] 56147.066

[GRAPHIC] [TIFF OMITTED] 56147.067

[GRAPHIC] [TIFF OMITTED] 56147.068

[GRAPHIC] [TIFF OMITTED] 56147.069

[GRAPHIC] [TIFF OMITTED] 56147.070

[GRAPHIC] [TIFF OMITTED] 56147.071

[GRAPHIC] [TIFF OMITTED] 56147.072

[GRAPHIC] [TIFF OMITTED] 56147.073

[GRAPHIC] [TIFF OMITTED] 56147.074

[GRAPHIC] [TIFF OMITTED] 56147.075

[GRAPHIC] [TIFF OMITTED] 56147.076

[GRAPHIC] [TIFF OMITTED] 56147.077

[GRAPHIC] [TIFF OMITTED] 56147.078

[GRAPHIC] [TIFF OMITTED] 56147.079

[GRAPHIC] [TIFF OMITTED] 56147.080

[GRAPHIC] [TIFF OMITTED] 56147.081

[GRAPHIC] [TIFF OMITTED] 56147.082

[GRAPHIC] [TIFF OMITTED] 56147.083

[GRAPHIC] [TIFF OMITTED] 56147.084

[GRAPHIC] [TIFF OMITTED] 56147.085

[GRAPHIC] [TIFF OMITTED] 56147.086

[GRAPHIC] [TIFF OMITTED] 56147.087

[GRAPHIC] [TIFF OMITTED] 56147.088

[GRAPHIC] [TIFF OMITTED] 56147.089

[GRAPHIC] [TIFF OMITTED] 56147.090

[GRAPHIC] [TIFF OMITTED] 56147.091

[GRAPHIC] [TIFF OMITTED] 56147.092

[GRAPHIC] [TIFF OMITTED] 56147.093

[GRAPHIC] [TIFF OMITTED] 56147.094

[GRAPHIC] [TIFF OMITTED] 56147.095

[GRAPHIC] [TIFF OMITTED] 56147.096

[GRAPHIC] [TIFF OMITTED] 56147.097

[GRAPHIC] [TIFF OMITTED] 56147.098

[GRAPHIC] [TIFF OMITTED] 56147.099

[GRAPHIC] [TIFF OMITTED] 56147.100

[GRAPHIC] [TIFF OMITTED] 56147.101

[GRAPHIC] [TIFF OMITTED] 56147.102

[GRAPHIC] [TIFF OMITTED] 56147.103

[GRAPHIC] [TIFF OMITTED] 56147.104

[GRAPHIC] [TIFF OMITTED] 56147.105

[GRAPHIC] [TIFF OMITTED] 56147.106

[GRAPHIC] [TIFF OMITTED] 56147.107

[GRAPHIC] [TIFF OMITTED] 56147.108

[GRAPHIC] [TIFF OMITTED] 56147.109

[GRAPHIC] [TIFF OMITTED] 56147.110

[GRAPHIC] [TIFF OMITTED] 56147.111

[GRAPHIC] [TIFF OMITTED] 56147.112

[GRAPHIC] [TIFF OMITTED] 56147.113

[GRAPHIC] [TIFF OMITTED] 56147.114

[GRAPHIC] [TIFF OMITTED] 56147.115

[GRAPHIC] [TIFF OMITTED] 56147.116

[GRAPHIC] [TIFF OMITTED] 56147.117

[GRAPHIC] [TIFF OMITTED] 56147.118

[GRAPHIC] [TIFF OMITTED] 56147.119

[GRAPHIC] [TIFF OMITTED] 56147.120

[GRAPHIC] [TIFF OMITTED] 56147.121

[GRAPHIC] [TIFF OMITTED] 56147.122

[GRAPHIC] [TIFF OMITTED] 56147.123

[GRAPHIC] [TIFF OMITTED] 56147.124

[GRAPHIC] [TIFF OMITTED] 56147.125

[GRAPHIC] [TIFF OMITTED] 56147.126

[GRAPHIC] [TIFF OMITTED] 56147.127

[GRAPHIC] [TIFF OMITTED] 56147.128

[GRAPHIC] [TIFF OMITTED] 56147.129

[GRAPHIC] [TIFF OMITTED] 56147.130

[GRAPHIC] [TIFF OMITTED] 56147.131

[GRAPHIC] [TIFF OMITTED] 56147.132

[GRAPHIC] [TIFF OMITTED] 56147.133

[GRAPHIC] [TIFF OMITTED] 56147.134

[GRAPHIC] [TIFF OMITTED] 56147.135

[GRAPHIC] [TIFF OMITTED] 56147.136

[GRAPHIC] [TIFF OMITTED] 56147.137

[GRAPHIC] [TIFF OMITTED] 56147.138

[GRAPHIC] [TIFF OMITTED] 56147.139

[GRAPHIC] [TIFF OMITTED] 56147.140

[GRAPHIC] [TIFF OMITTED] 56147.141

[GRAPHIC] [TIFF OMITTED] 56147.142

[GRAPHIC] [TIFF OMITTED] 56147.143

[GRAPHIC] [TIFF OMITTED] 56147.144

[GRAPHIC] [TIFF OMITTED] 56147.145

[GRAPHIC] [TIFF OMITTED] 56147.146

[GRAPHIC] [TIFF OMITTED] 56147.147

[GRAPHIC] [TIFF OMITTED] 56147.148

[GRAPHIC] [TIFF OMITTED] 56147.149

[GRAPHIC] [TIFF OMITTED] 56147.150

[GRAPHIC] [TIFF OMITTED] 56147.151

[GRAPHIC] [TIFF OMITTED] 56147.152

[GRAPHIC] [TIFF OMITTED] 56147.153

[GRAPHIC] [TIFF OMITTED] 56147.154

[GRAPHIC] [TIFF OMITTED] 56147.155

[GRAPHIC] [TIFF OMITTED] 56147.156

[GRAPHIC] [TIFF OMITTED] 56147.157

[GRAPHIC] [TIFF OMITTED] 56147.158

[GRAPHIC] [TIFF OMITTED] 56147.159

[GRAPHIC] [TIFF OMITTED] 56147.160

[GRAPHIC] [TIFF OMITTED] 56147.161

[GRAPHIC] [TIFF OMITTED] 56147.162

[GRAPHIC] [TIFF OMITTED] 56147.163

[GRAPHIC] [TIFF OMITTED] 56147.164

[GRAPHIC] [TIFF OMITTED] 56147.165

[GRAPHIC] [TIFF OMITTED] 56147.166

[GRAPHIC] [TIFF OMITTED] 56147.167

[GRAPHIC] [TIFF OMITTED] 56147.168

[GRAPHIC] [TIFF OMITTED] 56147.169

[GRAPHIC] [TIFF OMITTED] 56147.170

[GRAPHIC] [TIFF OMITTED] 56147.171

[GRAPHIC] [TIFF OMITTED] 56147.172

[GRAPHIC] [TIFF OMITTED] 56147.173

[GRAPHIC] [TIFF OMITTED] 56147.174

[GRAPHIC] [TIFF OMITTED] 56147.175

[GRAPHIC] [TIFF OMITTED] 56147.176

[GRAPHIC] [TIFF OMITTED] 56147.177

[GRAPHIC] [TIFF OMITTED] 56147.178

[GRAPHIC] [TIFF OMITTED] 56147.179

[GRAPHIC] [TIFF OMITTED] 56147.180

[GRAPHIC] [TIFF OMITTED] 56147.181

[GRAPHIC] [TIFF OMITTED] 56147.182

[GRAPHIC] [TIFF OMITTED] 56147.183

[GRAPHIC] [TIFF OMITTED] 56147.184

[GRAPHIC] [TIFF OMITTED] 56147.185

[GRAPHIC] [TIFF OMITTED] 56147.186

[GRAPHIC] [TIFF OMITTED] 56147.187

[GRAPHIC] [TIFF OMITTED] 56147.188

[GRAPHIC] [TIFF OMITTED] 56147.189

[GRAPHIC] [TIFF OMITTED] 56147.190

[GRAPHIC] [TIFF OMITTED] 56147.191

[GRAPHIC] [TIFF OMITTED] 56147.192

[GRAPHIC] [TIFF OMITTED] 56147.193

[GRAPHIC] [TIFF OMITTED] 56147.194

[GRAPHIC] [TIFF OMITTED] 56147.195

                                 <all>

</pre></body></html>
